<html>
<title> - [H.A.S.C. No. 116-60] UPDATE ON NAVY AND MARINE CORPS READINESS IN THE PACIFIC IN THE AFTERMATH OF RECENT MISHAPS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-60]

                    UPDATE ON NAVY AND MARINE CORPS

                    READINESS IN THE PACIFIC IN THE

                      AFTERMATH OF RECENT MISHAPS

                               __________

                             JOINT HEARING

                               before the

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                        meeting jointly with the

                       SUBCOMMITTEE ON READINESS

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            FEBRUARY 5, 2020
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             

                                     


                          ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-478               WASHINGTON : 2021                                      
  

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  JOE COURTNEY, Connecticut, Chairman

JAMES R. LANGEVIN, Rhode Island      ROBERT J. WITTMAN, Virginia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
DONALD NORCROSS, New Jersey          MIKE GALLAGHER, Wisconsin
SETH MOULTON, Massachusetts          JACK BERGMAN, Michigan
FILEMON VELA, Texas                  MICHAEL WALTZ, Florida
GILBERT RAY CISNEROS, Jr.,           VICKY HARTZLER, Missouri
    California                       PAUL COOK, California
MIKIE SHERRILL, New Jersey           BRADLEY BYRNE, Alabama
JARED F. GOLDEN, Maine               TRENT KELLY, Mississippi
ELAINE G. LURIA, Virginia, Vice 
    Chair
ANTHONY BRINDISI, New York
              Phil MacNaughton, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                           Sean Falvey, Clerk

                                 ------                                

                       SUBCOMMITTEE ON READINESS

                  JOHN GARAMENDI, California, Chairman

TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
ANDY KIM, New Jersey, Vice Chair     AUSTIN SCOTT, Georgia
KENDRA S. HORN, Oklahoma             JOE WILSON, South Carolina
CHRISSY HOULAHAN, Pennsylvania       ROB BISHOP, Utah
JASON CROW, Colorado                 MIKE ROGERS, Alabama
XOCHITL TORRES SMALL, New Mexico     MO BROOKS, Alabama
ELISSA SLOTKIN, Michigan             ELISE M. STEFANIK, New York
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico
               Melanie Harris, Professional Staff Member
                 John Muller, Professional Staff Member
                           Sean Falvey, Clerk
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1
Garamendi, Hon. John, a Representative from California, Chairman, 
  Subcommittee on Readiness......................................     4
Lamborn, Hon. Doug, a Representative from Colorado, Ranking 
  Member, Subcommittee on Readiness..............................     4
Wittman, Hon. Robert J., a Representative from Virginia, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2

                               WITNESSES

Brown, VADM Richard A., USN, Commander, Naval Surface Forces, 
    U.S. Pacific Fleet                                                5
Rudder, LtGen Steven R., USMC, Deputy Commandant for Aviation, 
    United States Marine Headquarters                                 7

                                APPENDIX

Prepared Statements:

    Brown, VADM Richard A........................................    48
    Courtney, Hon. Joe...........................................    41
    Garamendi, Hon. John.........................................    45
    Lamborn, Hon. Doug...........................................    47
    Rudder, LtGen Steven R.......................................    59
    Wittman, Hon. Robert J.......................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Conaway..................................................    71
    Mr. Kim......................................................    71

Questions Submitted by Members Post Hearing:

    Mr. Cisneros.................................................    76
    Mr. Kim......................................................    76
    Mr. Wittman..................................................    75
    
    UPDATE ON NAVY AND MARINE CORPS READINESS IN THE PACIFIC IN THE 
                      AFTERMATH OF RECENT MISHAPS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
   Subcommittee on Seapower and Projection Forces, Meeting 
                Jointly with the Subcommittee on Readiness,
                       Washington, DC, Wednesday, February 5, 2020.
    The subcommittees met, pursuant to call, at 2:31 p.m., in 
room 2118, Rayburn House Office Building, Hon. Joe Courtney 
(chairman of the Subcommittee on Seapower and Projection 
Forces) presiding.

 OPENING STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
CONNECTICUT, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND PROJECTION 
                             FORCES

    Mr. Courtney. Good afternoon, everyone. Today's joint 
subcommittee hearing of Seapower and Projection Forces and the 
Readiness Subcommittee is actually the fifth in a continuation 
of joint subcommittee oversight since 2017 that have 
specifically examined maritime mishaps in the Pacific and the 
underlying systemic readiness issues that were a major 
contributory cause of those catastrophic events.
    Since the gut-wrenching losses of 17 sailors from the USS 
Fitzgerald and the USS John McCain in June, the latter in June 
2017, these subcommittees have been the public forum to review 
and act on the Navy's Comprehensive Review, Strategic Readiness 
Review, and the Government Accountability Office, GAO's, 
studies on the manning, training, and operational shortcomings.
    As the USS Fitzgerald returns to sea this week for the 
first time since the collision, today's hearing is an 
opportunity for the Navy to provide an update to Congress and 
the Nation on how they have addressed these issues and how they 
have implemented the reforms needed to prevent them from 
happening again.
    Today's hearing also follows a tragic Marine Corps aviation 
mishap in 2018. This accident, in which an FA-18 Hornet [jet] 
and a KC-130H [extended-range tanker] collided in mid-air, has 
striking similarities to the earlier collision between aircraft 
in the same two squadrons that took place in 2017. Like the 
ship collisions in 2017 which exposed serious shortfalls in 
certifications of key operational training and navigation, 
seamanship, and engineering, this incident has revealed 
inadequate flight hours, night-time training, and equipment 
maintenance that were, at a minimum, contributory causes to the 
mid-air collision. The most recent mishap killed 5 of the 6 air 
crewmen involved, and our thoughts and prayers are with the 
families of these Marines just as they remain with the families 
of the 17 sailors killed in the 2 ship collisions.
    I know that our sailors and Marines that are forward 
deployed to Japan represent some of our best and brightest. 
Each of us recognize the role these men and women play in being 
the tip of the spear in one of the most active regions in the 
world. These men and women in uniform deal with longer hours, 
less time at home, higher operational tempos, and complex 
multinational strategies. Therefore, it is imperative that both 
the Navy and Marine Corps get this right and balance these high 
operational desires with requisite readiness systems and needs. 
The services owe deep analysis and critical examination of 
their readiness issues, whether it be training, maintenance, or 
proficiency, and Congress owes diligent and persistent 
oversight.
    The Navy has recognized that it is challenged by widespread 
institutional readiness issues. It is now proactive towards 
accepting responsibility and executing solutions at all 
leadership levels. They have established new governing bodies 
and have made notable progress in correcting the nearly 100 
issues identified by the Comprehensive Review, the Strategic 
Readiness Review, and multiple GAO reports.
    These corrections aren't superficial. They represent large, 
systemic, and deep programmatic changes across manning, 
training, budgeting, and operations. While I look forward to 
the Navy's update today on the progress, I am also encouraged 
by the Marine Corps appointment of an independent Consolidated 
Disposition Authority that will have broad authority in 
investigating command climate, training, and material 
readiness.
    As the Marine Corps grapples with these complex problems, I 
urge them to learn from the Navy's initial incidents and 
subsequent actions. Both these readiness reforms and Congress' 
oversight are iterative processes. It is my sincere hope that 
through continued oversight, further hearings, and robust 
dialogue with the services, we can continue to eliminate these 
readiness difficulties, ensuring that our service members come 
home safely.
    And I now would yield to my colleague, the ranking member 
of Seapower, Mr. Wittman.
    [The prepared statement of Mr. Courtney can be found in the 
Appendix on page 41.]

  STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE FROM 
    VIRGINIA, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Wittman. Well, I want to thank Chairman Courtney for 
yielding, and I want to also thank him for having an enduring 
interest in our naval forces readiness. Joe, thank you so much 
for that focus and that determination to make sure we get to 
the root of these things, and to make sure that changes are 
made so they are long-lasting.
    You know, I am particularly heartbroken over the loss of 
life associated with Navy surface forces and Marine Corps 
aviation forces. All were tragic. All were preventable. All 
have several common threads underlying the principal issues. In 
the end, the lack of senior leadership, inattention to the 
apparent problems facing the respective units, and an inability 
of the operators to discern the dangers they were in all 
contributed to the same tragic results.
    The Marine Corps is particularly troubling. The KC-130J 
collision with the Hornet aircraft at night over the sea of 
Japan was an accident waiting to happen. Months earlier, the 
squadron commander wrote to his superiors and indicated, 
quotes: Everyone believes us to be underresourced and 
undermanned.
    The III MEF [Marine Expeditionary Force] commanding 
general, Lieutenant General Clardy, responded to the accident 
and indicated the Marine Corps, in his words, had a chronic 
history of unconstrained tasking and underresourcing, creating 
a culture of complacency.
    He went on to further indicate that his Marine aircraft 
wing faced significant challenges in manning, maintaining, and 
training its squadrons. The conclusion of this accident rings 
particularly close to the heart as they are eerily similar to 
the same outcomes associated with the McCain/Fitzgerald 
collisions.
    In those two efforts, the Secretary of Navy's Readiness 
Review concluded, leaders in organizations began to lose sight 
of what right looked like and to accept these altered 
conditions and reduced readiness standards as the new normal. 
In this review, the report further concluded that, over time, 
the Navy's must-do, wartime culture was adopted for peacetime, 
as long-term readiness and capability were sacrificed for 
immediate mission accomplishment.
    What I thought was a defining, seminal moment for the 
Secretary of the Navy, a moment that I understood included an 
assessment of the Marine Corps, was instead somewhat fleeting, 
and lessons learned still not fully adopted. We can do better, 
and we must do better.
    For the surface forces, we need to adopt a more rigorous 
accessions training evolution, similar to that of the merchant 
marine. We need to ensure more junior officer seamanship 
training. Our enlisted training needs to be systematically 
reviewed to eliminate outdated training. And our sailors, I 
think, are the most perceptive measures of that. They know what 
they need, and we want to make sure that it is modern and 
keeping with today's challenges.
    Our afloat manning needs to be significantly improved. Our 
basing and maintenance processes need to be aligned, including 
modernizing facilities. We need to step out of our comfort 
zones and ensure the manning, training, and equipping of our 
forces is maximized for both efficiency and effort.
    As to the Marine Corps, I think that we need to do some 
deep soul-searching and ensure that we have the right readiness 
at the right time. This balance is difficult to achieve, but we 
should never sacrifice the safety of our Marines upon whose 
backs our Nation is carried.
    Again, I appreciate the chairman for having this important 
hearing, and I yield back the balance of my time.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 43.]
    Mr. Courtney. Thank you, Mr. Wittman.
    And, again, you have been part of the prior four briefings 
and hearings we had as many of the other members here today.
    Again, the Readiness Subcommittee is, again, our colleagues 
here today and yield to the chairman of the subcommittee, Mr. 
Garamendi, from California.

    STATEMENT OF HON. JOHN GARAMENDI, A REPRESENTATIVE FROM 
        CALIFORNIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Garamendi. I thank you, Mr. Courtney. I am going to 
shorten my remarks and ask that it be put into the record. Much 
of what I would say you have already said, both you and your 
ranking member. But I do want to thank you and the work of the 
staff, this being our committees working together over the past 
2 years on the issues before us today.
    And I want to also state that we continue to honor and 
remember the 17 sailors and 6 Marines who died in the tragic 
surface ship and aviation collisions in 2017 and 2018. Our 
thoughts remain with their loved ones and their friends.
    Just a quick thing, there are three things we need to do 
here. First, we need to be absolutely certain that these things 
don't happen again. Preventable accidents, got to get on top of 
that.
    Second, that the decisions made by senior personnel, senior 
command, be wise decisions, as has already been stated by my 
two colleagues.
    And, finally, that we continue our oversight.
    I ought to also just very quickly thank two organizations--
the Government Accountability Office and ProPublica--for 
bringing to light many of the issues that were hidden, were not 
obvious. Both of them have done an enormous service to the men 
and women in uniform as well as to the general public, and 
certainly to us.
    With that, I yield back, and ask that my full comments be 
in the record.
    [The prepared statement of Mr. Garamendi can be found in 
the Appendix on page 45.]
    Mr. Courtney. No objection. Thank you, John.
    I now yield to the ranking member, Mr. Lamborn, from 
Colorado, on Readiness.

STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE FROM COLORADO, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Mr. Lamborn. Thank you, Chairman Courtney. I would like to 
thank you and Ranking Member Wittman for your continued 
collaboration with Chairman Garamendi and me on these critical 
issues.
    Many factors contribute to military readiness, but it seems 
to me that it really comes down to the basics--have we given 
our men and women in uniform the right training and equipment 
for the jobs we ask them to do, and is that equipment properly 
maintained? With all of the technical advancements in modern 
warfare, we still have to focus on blocking and tackling.
    Last week, the four of us up here who have just spoken 
embarked on the USS Eisenhower, and I was impressed by the 
discipline required by our sailors and aviators to safely 
conduct carrier operations. The flight deck is a dangerous 
place with moving aircraft and heavy equipment and flammable 
liquids everywhere, and the ship is powered by a nuclear power 
plant. There is good reason we have such high standards.
    So that brings me to the purpose of this hearing and the 
thing that concerns me the most. When we are moving so fast 
that we lose focus on the fundamentals, it has real-world 
consequences that are borne by our service members and their 
families. The common threads in the challenges confronting our 
surface fleet and aviation forces are culture and a focus on 
short-term operational outputs.
    It is concerning to me that the 2017 surface warfare 
mishaps in the Western Pacific were at the very tip of the 
spear for our Navy. The Marine Corps F/A-18D squadron that 
experienced the December 2018 mishap was scheduled to 
participate in a large military exercise that was canceled 
right before the mishap. It is unclear to me that the unit was 
prepared for an operation on that scale.
    So, as we proceed today, I would ask our witnesses to 
highlight where their services are focused on changing culture 
and thoughts they have on how to effectively measure that 
progress. Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Mr. Lamborn can be found in the 
Appendix on page 47.]
    Mr. Courtney. Thank you, Mr. Lamborn.
    And now, again, it is my honor to introduce our witnesses 
here today. Vice Admiral--sorry--Vice Admiral Richard Brown, 
who is no stranger to this committee. Again, you actually 
joined us about a year or so ago on this very issue and again, 
our commander of Pacific Fleet.
    And you are joined here today by Lieutenant General Steven 
Rudder of the U.S. Marine Corps, Deputy Commandant for Aviation 
from the United States Marine Headquarters.
    Again, you have been with us over the years at budget 
hearings and many others.
    So thank you to both of you for joining us.
    And, again, Mr.--Admiral Brown, you are going to lead off, 
so the floor is yours.

   STATEMENT OF VADM RICHARD A. BROWN, USN, COMMANDER, NAVAL 
               SURFACE FORCES, U.S. PACIFIC FLEET

    Admiral Brown. Thank you, sir. Chairman Courtney, Ranking 
Member Wittman, Chairman Garamendi, and Ranking Member Lamborn, 
and distinguished members of the Seapower and Projection Forces 
and Readiness Subcommittees. On behalf of the United States 
Navy, thank you for the opportunity to join you to discuss the 
readiness of our surface forces.
    My east coast counterpart, Rear Admiral Roy Kitchener, and 
I have the authorities, the responsibilities, and more 
importantly, the accountability for the generation of ready 
surface forces. Our number one priority is current readiness, 
and we are directly responsible to the four-star fleet 
commanders for the manning, training, and equipping of the 
surface force.
    Bottom line, the surface type commanders provide combat-
ready ships and battle-minded crews to our numbered fleet 
commanders. During my testimony today I want to reinforce that 
the Navy has moved and is continuing to move with urgency to 
ensure the funding, policies, and sustainable processes 
required for long-term success are in place. I have three 
specific highlights.
    First, there is one unified standard for ensuring 
readiness. Our manning, training, and equipping objectives are 
unambiguous. We only deploy ships that have the required 
manning, are fully certified, and have the necessary material 
readiness in place. Commanders at all levels embrace the 
standards and their responsibility for attaining such.
    My job, as a surface type commander, is to help our 
commanding officers attain these standards and, where 
necessary, break down barriers. Should an unusual or urgent 
case that requires a deviation arise, that approval authority 
resides solely with the four-star fleet commanders.
    Second, in response to the Strategic Readiness Review and 
the Comprehensive Review findings, we implemented compliance 
measures to break the normalization of deviance and impose risk 
management. We undertook measures to enhance the development, 
assessment, and sustainment of proficiency. Concurrently, we 
reestablished firebreaks by more effectively balancing 
maintenance, training, and operations.
    The culture of excellence we are forging today embodies the 
standards as the minimum rather than the goal. While not 
declaring mission complete, over the last 2 years, the pace of 
enhancements and their initial results are cause for optimism.
    Lastly, we are the premier surface force in the world, 
second to none, that controls the seas and provides the Nation 
with combat naval power when and where needed. Type commanders 
and resource sponsors are committed to providing our surface 
force with the manning, the training, and the equipment needed 
to own the fight. While combat readiness remains my highest 
priority, we will continue to enhance mariner and warfighting 
skills training, we will deliver warfighting capabilities 
essential to the future fight, and we will initiate actions to 
prepare individuals and watch teams to fight and win.
    Remaining the world's premier surface force requires 
collaboration at all levels. Although we have made significant 
progress that paves the way for long-term success, our efforts 
will not cease. Never being satisfied with past successes 
fosters an unrelenting drive to improve. That is the hallmark 
of premier organizations. With the continued support of 
Congress and our commitment to excellence, I am confident in 
the Navy's ability to deploy combat-ready ships with battle-
minded crews when called upon to do so.
    I thank you for the opportunity to appear before you today 
and greatly appreciate your continued support. I look forward 
to your questions and the opportunity to discuss the specific 
actions we are taking to strengthen our surface Navy. Thank 
you.
    [The prepared statement of Admiral Brown can be found in 
the Appendix on page 48.]
    Mr. Courtney. Great. Thank you, Admiral.
    And, General Rudder, the floor is yours.

 STATEMENT OF LTGEN STEVEN R. RUDDER, USMC, DEPUTY COMMANDANT 
        FOR AVIATION, UNITED STATES MARINE HEADQUARTERS

    General Rudder. Thank you. Good afternoon, Chairman 
Courtney, Ranking Member Wittman, Chairman Garamendi, and 
Ranking Member Lamborn, all the members of the committee, and 
your staff behind you. Thank you for the opportunity to appear 
here today.
    As you are aware, the Marine Corps title 10 [10 U.S.C. 
8063] responsibility is to be the Nation's expeditionary force 
in readiness. We are charged and expected to always be the most 
ready when the Nation is least ready.
    This responsibility is at the very core and identity of the 
Marines. As Deputy Commandant for Aviation, my focus continues 
to be readiness for combat, as I have told you for the past 3 
years, and with your help, we are making progress. We are still 
modernizing, and most importantly, we are focusing on the 
maintainer, those Marines and sailors who work on our aircraft.
    As a testament to congressional support and our efforts, 
Marine aviation readiness has continued to improve since 
November of 2017. It continues to be our primary effort, 
especially with our TACAIR [tactical air] community and as 
evident by the MC80 [mission-capable 80 percent] focus of last 
year. So, again, thank you for that support.
    In 2019, Marine aviation executed 78 operations. We were 
part of 88 major security cooperation events with partners and 
allies, participated in 170 major exercises. Today, there are 
over 19,000 aviation Marines forward stationed, 17,000 forward 
deployed, totaling 19 percent of Active Duty force forward 
engaged in 60 countries around the world.
    Our achievements, however, have not come without their 
share of tragedy and hard lessons learned. On December 6, 2018, 
the naval aviation community absorbed a devastating loss when a 
Marine F/A-18D Hornet from VMFA-242 [Marine All-Weather Fighter 
Attack Squadron 242] collided with a KC-130J from VMGR-152 
[Marine Aerial Refueler Transport Squadron 152] during a 
training event over the Pacific Ocean 50 miles off the coast of 
Japan.
    Both squadrons were based out of Iwakuni on mainland Japan 
on the 12th Marine Air Group, 1st Marine Air Wing, III MEF. Six 
Marines were lost. All these Marines served their country with 
honor, and they will never be forgotten.
    We cannot change what has happened. What we can do is use 
this tragedy to grow and change our organization, make these 
operations and all operations safer. Such initiatives will be 
the legacy of these six Marines.
    On September 23rd, 2019, the Assistant Commandant of the 
Marine Corps appointed a Consolidated Disposition Authority to 
further review the findings of the command investigation into 
this mishap. The CDA, as we call it, is an independent senior 
commander who will provide a comprehensive review of the 
investigation and all the facts surrounding it.
    The CDA may order a range of actions to include further 
investigation and/or administrative or disciplinary actions in 
accordance with the Uniform Code of Military Justice. However, 
I can assure you that, upon completion of the CDA, our first 
priority will be to inform all the families of our lost Marines 
on the relevant results of our findings and provide 
transparency.
    We still have much work to do to ensure that our aviation 
Marines and sailors are among the best trained and equipped 
forces in the world. I am confident that we are headed in the 
right direction, and with your continued support, we will 
achieve our aims.
    I am here today to inform you of the steps we have taken so 
far to increase our readiness levels and to make our operation 
safety. I look forward to your questions.
    [The prepared statement of General Rudder can be found in 
the Appendix on page 59.]
    Mr. Courtney. Thank you to both of you. And again I just 
want to ask a couple quick questions and open it up to other 
members.
    Admiral Brown, last time you testified, it was sort of at 
the, you know, sort of the early stages of implementing some of 
the changes from the different reviews, some of which were done 
internally by the Navy, some of which Congress actually 
codified. I think it was the 2018 NDAA [National Defense 
Authorizing Act] that Senator McCain advocated very strongly 
for.
    And you actually cited a couple examples of where, you 
know, this problem of folks at the lower levels, you know, 
being concerned about readiness problems, not sort of making 
its way up the food chain and that the decisionmakers, you 
know, never had the opportunity to, you know, pull the safety 
break, as Admiral Richardson described it when he testified 
before this committee.
    And, again, I think you cited some specific examples of how 
that change is already starting to occur with a couple of 
instances. It has been about a year or so, and I was just 
wondering if you could sort of update us in terms of, you know, 
again, whether or not that sort of extra sort of safety catch 
or safety break is still working the way I think everybody was 
hoping for?
    Admiral Brown. Yes, sir. I believe so. And I will give you 
a couple of examples here in a minute. The real thing that we 
did and I talked about in--it was June of 2018--is that--and 
then CNO [Chief of Naval Operations] Richardson was here 
testifying at the same time--is, we established the necessary 
firebreaks between force generation and force employment.
    It was a true statement that, back in 2016 and 2017, we 
were evaluating operations over basically everything else, 
especially in the FDNF [Forward Deployed Naval Forces] world. 
The firebreaks weren't there. So we have codified, through 
instruction and through directives, to put those firebreaks in 
place.
    Two things, the first one is the integrated readiness 
instruction that was signed off by the Chief of Naval 
Operations, and that lists what the minimum training standards 
are for each particular operation. As you can imagine, if we 
are sending a ship up to fleet week in San Diego or in San 
Francisco, the training requirements would not be as robustly 
needed as a ship that was getting forward deployed as part of a 
rotational force.
    The second thing is, my ADCOM, administrative command, 
voice is now very large, where perhaps it was not the case in 
years past.
    So there is an insatiable demand for naval forces across 
all the combatant commanders. We are the most visible presence 
of the United States. Whenever we are not somewhere, that 
creates a sucking vacuum that then is filled in by somebody 
else. That said, not everything that we do is national tasking 
or phase zero tasking. So there must be a balance between that 
insatiable demand for forces and the maintenance and the 
training and the certification.
    When there are discussions about using ships that are not 
fully certified, that is when my voice gets very loud and the 
four-stars listen now. And I will give you an example, is a 
destroyer was being talked about being used for a particular 
mission in FDNF. She was not basic phase complete, and we 
raised the red flag, and the discussion stopped. So that is 
very promising.
    Mr. Courtney. General Rudder, again, you described the 
Consolidated Disposition Authority review in your--or the new 
review that is going to be taking place, and again I appreciate 
the fact that the families are going to get the first look at 
it when it is available. Can you give us some idea of the 
timing of, you know, roughly, you know, when you think that is 
going to be complete? And obviously our committee will want to, 
at some point, also have an opportunity to sink our teeth in 
it, and again that is the Marine Corps plan.
    General Rudder. I don't have the precise analysis. They 
are, you know, as we speak, locked in a room still going 
through the final phases of this thing, but I envision in the 
next few months that we will have something presented to the 
Commandant for his decision.
    Mr. Courtney. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I appreciate the 
witnesses joining us today.
    Admiral Brown, I understand the Navy has a requirement for 
its surface ships to be at 95 percent of required manning, and 
then within each of the specialty areas on board the ship to be 
at 92 percent of required manning to make sure that the full 
complement is on board the ship. It appears, though, that 
looking at the quarterly report showing deficiencies to 
Congress, it appears to me that there are still issues with 
basic and intermediate training. So the manning needs there and 
the skill sets necessary to meet that, not just the 95 percent 
overall but the 92 percent, are still pretty deficient.
    My wife is a schoolteacher. This is her 40th year of 
teaching school, and her school system requires that she give 
her students a grade as they are in the classroom and doing 
things and determining whether or not they are meeting 
expectations or not. Give me the Navy's grade on where you are 
with these requirements for the surface fleet and give me a 
little reason why you believe that grade is a just grade.
    Admiral Brown. Yes, sir. I would give us a B-minus.
    Mr. Wittman. Okay.
    Admiral Brown. C-plus to a B-minus, for a couple of 
reasons. The first is the resource sponsor does a pretty good 
job of buying to what the requirement is. We buy about 98 
percent of the requirement. That establishes our billets 
authorized. But if we wanted all the ships to be at 92 percent 
fit and 95 percent filled throughout their entire cycle, the 
36-month cycle of the OFRP [Optimized Fleet Response Plan], we 
would actually have to buy 120 percent of the requirement to 
account for the friction. That is the reason why I give us a B-
minus or a C-plus, is that we have done a very good job over 
the last couple of years, about paying for the total ownership 
cost of manpower, but we really haven't bought any--all of it. 
Because it is a balance, you know. We have to balance the 
portfolio across the--across all the things that we need to do.
    That said, we strive in the Pacific Fleet--and I have been 
meeting this since the middle of last year--is to get the ships 
to 92, 95 at the beginning of the advanced phase of training. 
That is the Surface Warfare Advanced Tactical Training. Then we 
keep the ships there through the integrated phase of training 
and through the deployment.
    And then we do not allow them to degrade very significantly 
while they are in sustainment. That is what gets me to the B. 
And we were not doing that back in 2016 and 2017.
    That said, the last point I will make is I have actually 
done a study on what is the required fit to have the right 
number of watch standards in place when they are in the basic 
phase, and that is about 88 percent. So, if a ship is running 
at about 88 percent fit, they are usually around 92 percent 
fill, and they have the right people in place for the most part 
during the basic phase.
    Mr. Wittman. I appreciate you pointing that out. If you 
look at the different measures about where the Navy is and how 
many sailors it is short to get to the 120 so you can meet 95 
and 92, somewhere between 6,000, maybe even the upper end of 
9,000 sailors. So, obviously, we have to be able to get to that 
point if we are going to get where we need to be with the Navy.
    You talk a lot about the training aspects of that. And 
listen, there has been some significant advances in officer 
training. The problem, though, is, what are we doing on the 
enlisted side. You know, when our sailors get out of basic 
training and go to C School, as they call it, and the training 
that they get there, it still seems the schoolhouse training is 
somewhat insufficient. If you look at training on more modern 
teaching aids, more modern systems, and as you see in the 
McCain and Fitzgerald collision, you have sailors that moved 
from one ship to another, dissimilar systems. You know we have 
lots of surface ships out there, and as we modernize them, 
unfortunately there are different systems on board. So, you 
think you know a navigation system, you get to a different 
ship, and it is very, very different. So, give me a reflection 
on where we are with enlisted training, what you are doing to 
make sure there is a modern training regime here, that the 
schoolhouse training is where it needs to be. I understand when 
they get to the fleet, they can learn those ship systems, but 
you got to go to the fleet with that basic understanding that 
comes from the schoolhouse training.
    Admiral Brown. Yes, sir, I agree. And we are doing it, we 
are achieving that through our Ready, Relevant Learning 
processes. We are delivering modernized training as we take 
individual rates and we transition them from the old way that 
we would do A-School and C-School to now Ready, Relevant 
Learning, and the real goal is to, number one, modernize the 
training delivery so it is not death by PowerPoints.
    Mr. Wittman. Right.
    Admiral Brown. Number two is to give the right training at 
the right time. And the example that I will use is Aegis FC 
[Fire Controlmen] training. We would literally give a master-
level degree of training to Aegis Fire Controlmen that would 
take anywhere up to a year to 18 months. And by the time that 
they get to the ship, they may only have a year and a half left 
on their contract. That really wasn't the right thing. What we 
need to do is give them the training that they need for that 
first sea tour. And then when we say, hey, that sailor is 
really sharp and committed for another sea tour or the rest of 
that sea tour, then we will give them the additional training.
    We are doing that through STAVE, which is the Surface 
Training and Advanced Virtual Environment, where we are 
actually modernizing the delivery methods. I am very excited 
about this. The surface force actually led the way, beginning 
in 2013, when we developed the quartermaster training 
continuum. That was the genesis for Ready, Relevant Learning.
    Mr. Wittman. Very good. Thank you, Mr. Chairman. I would 
like to come back in the next round and ask some more 
questions. Thanks.
    Mr. Courtney. Thank you, Mr. Wittman.
    Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman. Where do we start 
here? Let's talk about rest periods. One of the problems that 
was noted was an insufficient amount of rest. I noticed when I 
try to take a delayed flight out of Dulles, chances are that 
the crew isn't going to meet the rest requirements, and then 
they got to go find another crew. So, gentlemen, if you will 
talk about that, the circadian rhythm, how that fits into it, 
what you are doing about that.
    Admiral Brown. Yes, sir, from the surface force 
perspective, that was one of the first things that we went 
after. In November of 2017, a circadian rhythm watch bill 
rotation instruction was put out and codified for the surface 
force. Circadian watch bill rotations is more about shipboard 
routine than it is actually about the number of watch sections 
that you have. The example that I use is: If a particular watch 
section is in port and starboard--so you stand watch for 6 
hours, and then you are off for 6 hours--typically the OS's 
[operations specialists] in combat are in that section. If you 
run a shipwide evolution in the morning, you crush the mid-
watch folks. So, it is more about shipboard routine.
    So general quarters training we would do in the afternoon 
when those mid-watch folks are already on watch.
    We are actually tracking and monitoring our progress over 
the last 2 years of how we have implemented that in the force. 
We do that through the ATG [Afloat Training Group] training. 
There is actually crew endurance checklists that are now filled 
out by the crew and the ATG trainers, and that actually goes 
into our training system, and it feeds into the score that the 
ship receives for the basic phase of training.
    The other way that we are monitoring this is through the 
Afloat Bridge Resource Management workshops with the post major 
command CO [commanding officer] mentors, who are specifically 
trained in fatigue management by my human factors engineers 
that are embedded on my staff.
    The other way, there is another pulse point that happens 
twice in a cycle which are through the afloat safety surveys, 
where they are actually measuring crew fatigue. So, we are 
moving in the right direction. I am not calling mission 
complete because I just sent out a tasker to both coasts where 
I want to go start asking very detailed, deep questions to the 
ships to make sure we have this right.
    Mr. Garamendi. General. General Rudder.
    General Rudder. We have got several instructions that talk 
about sleep and rest, and, you know, we have rules on what 
rest--uninterrupted rest is required before you can plan, 
brief, and fly a mission. Where it gets a little bit more 
nondescriptive is when you desynchronize your day and night 
schedules. So, for those extended periods, which as they call 
it in the CNAF [Commander, Naval Air Forces] manual, it talks 
about having 4 weeks to desync yourself, synchronize yourself 
into a night schedule. We do this for combat operations where 
in some cases, if you were flying in OAR [Operation Atlantic 
Resolve], you are flying in OEF [Operation Enduring Freedom], 
then--and you were on a night page, as we call it, night 
schedule, you would be flying nights for 6 months straight, 
potentially. And then it would take you a while to kind of get 
your body in there.
    For the lesser exercises, where you are--if you are going 
to do one night mission, then you can come off a day schedule, 
if you will, and fly that one night mission. Where it gets a 
little more complicated is, how many night missions are you 
going to do that gets you into a desynchronization period? This 
all goes back to our flight surgeon, the commanding officer, 
and as we lead into an exercise, how long does he give his 
aircrew a time to synchronize themselves into that night 
schedule and how they do that? And that is really when you get 
into the 3 or 4 days as the exercise--3 or 4 or 5 days as the 
exercise was in this particular event that we are talking about 
today, giving 2 or 3 days in there was right on the edge of 
what the flight surgeon and the commanding officer thought they 
needed for those particular aircrew to sync themselves into a 
night schedule.
    Mr. Garamendi. There is also the question related to this 
is the amount of training and specifically for night flying, 
and apparently that was lacking in the 2018 situation. So, 
there was a question of not--insufficient rest as well as 
insufficient training for night refueling. Is that the case? 
And you have solved that problem?
    General Rudder. The qualifications that--so, for the 
qualifications for that particular crew to go out that--to do 
that mission, they had met the qualifications to do that 
mission--the qualifications to do that. You could make a case, 
because of their low flight hours in the 3 or 4 months 
preceding that, they were not as proficient to do the missions 
as they should. So, yes, they were not as proficient. Were they 
qualified for tanking, and had they flown night, and were they 
qualified to fly night mission? And if you look at the data, 
they were qualified but not as proficient as we would like to 
see.
    Mr. Garamendi. So, proficiency comes with training hours--
flight hours and the like. It was thought at the time that 
there were insufficient training, insufficient hours of flight. 
Have you resolved that issue? Are you providing sufficient 
training in the air, in training facilities, and the like?
    General Rudder. So, broadly speaking, within the F-18 
community, their flight time has increased dramatically as 
long--as well as their readiness. For this particular squadron, 
242, up through 2017, they actually, although they lagged in 
some cases behind in the numbers of hours per pilot, their 
readiness was at the same level as those nondeployed units back 
in the States.
    We tend to take the squadron that was in OIF--OIR 
[Operation Inherent Resolve], excuse me, off the table because 
they were flying two or three times the amount of hours, and 
they skew the data sometimes in our real readiness. In that 
particular squadron, what we saw in 2018 is, they were behind, 
sometimes ahead, as they went through 2018, but as they 
deployed to Australia before they went into this exercise, that 
is where we saw a dip in the hours. So ProPublica, as their 
data suggests, is correct. I mean, leading into the flight that 
they took there for the preceding 3 or 4 months and what the 
commanding officer was worried about, are those months where 
they were in Australia, trying to get back from Australia. That 
is when they had a dip in readiness and a dip in hours.
    Mr. Garamendi. One quick question for both of you is that 
it appears as though the commanding officer, certainly with 
regard to the Marine Corps problem, or accident, indicated 
through the--up to the chain of command that there were 
problems, and that those problems were serious, that they 
needed attention, and the chain of command did not provide the 
necessary time to correct the problems. Could you both speak to 
that issue and give us some indication whether this remains a 
problem? In other words, the chain of command not paying 
attention to information coming from lower down the command? 
Admiral Brown, why don't you start, and we will give General 
Rudder a short break.
    Admiral Brown. Yes, sir. It is a great question, and one of 
the things that we did in response to the tragedy of 2017 is 
directly opened up the communication from our commanding 
officers directly to me as their type commander. They do that 
with a 90-day letter that they send me 3 months after they take 
command, and that letter comes to me, comes straight into my 
inbox. It is not chopped by their commodores. It is not chopped 
by their strike group commanders. It comes straight to me. I 
typically answer that letter within 72 hours, but I staff it 
all out. Because the commanding officers, at first there was a 
little trepidation: Is this going to be a micromanagement tool? 
They figured it out. This was a barrier removal tool. Because 
they identify in these letters specific things that are holding 
them back from doing their job as the CO, and when I get it, I 
send it out to my staff, but not only do I send it out to the 
staff, sometimes I send it up to the OPNAV [Office of the Chief 
of Naval Operations] staff. I have sent it over to Tom Moore at 
NAVSEA [Naval Sea Systems Command] to get after issues.
    The other thing that we have instituted--and that has been 
very effective, and the COs love that now.
    The other thing that we have instituted was phase 
transition briefs. So, when a ship is coming out of the 
maintenance phase, the commanding officer actually comes over 
and briefs to me their readiness to start the basic phase: This 
is what the basic phase looks likes; here is my manpower 
concerns, I am missing these people.
    And I have all my N-codes around, and I can look right at 
my N1, my personnel captain, and say: Go fix that right now for 
that CO.
    Then we do that when they go into the SWATT [Surface 
Warfare Advanced Tactical Training] training and then when they 
go into COMPTUEX [Composite Training Unit Exercise], and then 
there is an actual formal brief that goes up to Admiral 
Aquilino or Admiral Grady from 2nd or 3rd Fleet on the 
readiness for the entire strike group to transition to the next 
phase. That is how we have gotten after it, sir.
    Mr. Garamendi. General Rudder.
    General Rudder. We have been watching F-18 and TACAIR and 
all the readiness through all the airframes since 2017. So, you 
know, prior to this, this wasn't the first time that TACAIR and 
especially the F-18 community, the commanders, you know, raised 
their hands: I need, you know, X, Y, and Z.
    And as an example, for the overseas elements and for the 
maintenance side of things was the manpower piece. We knew 
early on, back in 2016 and 2017, from some of the other events 
that occurred, that we needed to change the manpower policy or 
ask for an exception to manpower policy. That policy is such 
that, when you send an unaccompanied Marine to Okinawa or 
Iwakuni to work on airplanes, he is a 2-year Marine. That means 
he is only going to be in that organization for 2 years, and 
then he comes back. We asked for an exception to policy to make 
that a 3-year. At the end of 2 years, they get their 
designations, and when you have 30 lance corporals go in, to 
get their designations 2 years later, and they leave, and 30 
new lance corporals come into that same organization. Even for 
our married Marines, accompanied Marines, if you will, it is a 
3-year tour. So, you have this constant flux of manpower. So, 
we have been trying to get--you know, we changed the policy to 
3 years, so now at least you get a year out of that Marine 
after he gets his designations in the maintenance department.
    We have also--if you want to reenlist and you want to 
reenlist under the--what we call the readiness kicker for 
reenlistment, we will give you $20,000 to stay in that 
organization for another 2 years. We have had some success in 
overseas billets on people extending on that. I can't speak to 
the exact risk management situations that all the commanders 
talked about, leading up to this event because that is what the 
CDA is looking at, but I can tell you that all the things, the 
policies and procedures, were in place to assess that risk 
before they did this mission.
    Mr. Garamendi. I yield back.
    Mr. Courtney. Thank you, Mr. Garamendi.
    Mr. Lamborn.
    Mr. Lamborn. Okay. Let's see what hasn't been already 
covered here.
    General Rudder, on the day of the December 2018 mishap, the 
pilot had flown 13.1 hours in the previous 90 days, which is 47 
short of the 60 required to be current. And in your written 
testimony, you said that there has been some increase, some 2 
percent for F-18--F/A-18 pilots and 6 percent for F-35 pilot 
training flight hours. So that is good to have an improvement, 
but it seems like there is still room for a lot more 
improvement. Is the Marine Corps currently able to generate 
enough sorties to meet the flight hour currency requirement for 
pilots?
    General Rudder. Yeah. We were, you know, in 2016, you know, 
we were down around 9 hours per pilot, and then 2017, we were 
13. Then we went up to 15.9, almost 16 in 2018. In 2019, we 
just kind of held state sitting around the 16, 17 mark. So, 
broadly speaking, our hours have come a long way. For this 
particular event, those 90 days preceding when you see that 90 
days, that is where, I guess, the data suggests, data shows, 
that the readiness was not where it should have been when that 
squadron, and the hours were not where they should have been.
    Mr. Lamborn. Is that where Australia was involved?
    General Rudder. That is where the Australia event and 
trying to get back and typhoon season. Just a litany of things 
that happened in there.
    Mr. Lamborn. But, going forward, do we have the hours--the 
sorties to provide the requisite number of hours?
    General Rudder. Yeah. So in--I will speak broadly for the 
F-18, then I will kind of come back to what we are trying to do 
there--is for, in the F-18 community, a lot because of the MC80 
effort, a lot because of what the naval enterprise has done for 
Super Hornets and Legacy Hornets and F-35, we were able to get 
to 80 percent seven different times in 2018, and we were able 
to fly those sorties and increase our mission-essential task 
completion rates out in the fleet and continue in a stride of 
combat operations and carrier operations and continued 
deployments.
    So, the answer is we are not there yet. We are not 
satisfied by any means. For 242 proper--they are still in the 
crawl phase. I will tell you today they were 10 out of 12 
airplanes, and they have been kind of looking pretty good 
lately. So, we are rebuilding that squadron if you will. And 
our endeavor is, at the end of this year, we are going to 
transition that squadron to an F-35 squadron. So we will--we 
will--we are currently flowing and at the end of this year, our 
goal is to have two F-35 squadrons in Iwakuni with the brand-
new high-lot airplanes with a whole new refreshed crew, U.S.-
trained, sent forward, and what III MEF is doing in the 
meantime is for their readiness or for their readiness 
contract, if you will, is their training exercises are going to 
be based upon readiness. And that will be the focal point, 
institutionalizing that, much like the carrier air wing does 
before they go on, and the Air Force does in some cases, for 
Red Flag and Northern Edge [exercises]. We got a lot of 
initiatives that are in the works.
    Mr. Lamborn. Okay. Thank you for explaining that.
    And, Admiral, I have a question for you. And I know this is 
an older study. The DOD [Department of Defense] Inspector 
General [IG] released an assessment that focused on the records 
for a dozen destroyers from 2013 to 2018. But I guess the 
report just recently came out. And for the Optimized Fleet 
Response Plan, OFRP, they found that, quote, for 9 of the 12 
destroyers, commanding officers reported training deficiencies 
such as the inability to be certified or maintain proficiency 
in mission areas such as electronic warfare or undersea 
warfare. So, do you--and I know we have touched on training 
already, but to just go even further into this, do you agree 
with that assessment, and what changes will you be making in 
response to that?
    Admiral Brown. So, I do agree with that assessment because 
the DOD IG report looked at the same readiness metrics that the 
SECNAV [Secretary of the Navy] Readiness Review and the 
Comprehensive Review looked at, August of 2012, I think it was, 
until April of 2018. So, we had already started moving out with 
urgency. It was in January of 2018 that we stood up the RROC, 
the Readiness and Review Oversight Council. That is where we 
took the 117 recommendations. We pared it down to 111. There 
were a number that were duplicative. And then we moved out on 
those things.
    So those training deficiencies that were identified in the 
DOD IG report were the same training deficiencies and problems 
identified, and we have already moved out to correct that. So, 
2 years later now, I am not calling mission complete, but if 
you look at our enhancements and the initial results, it is 
very promising, and I believe we are continuing on the right 
path.
    Mr. Lamborn. Now, going forward, how confident are you that 
those changes that have been instituted will endure?
    Admiral Brown. Sir, we do not deploy ships that are not 
fully certified anymore. And if we chose to do that, that 
would--the four-star fleet commander would be the decider. I 
will give you an example of, there was a ship--and I won't go 
into great operational details--but a ship did not complete one 
portion of a certification, and it was a very--it was--they did 
all the training, but weather prevented the actual shooting of 
the gun, and we went to the four-star fleet commander and said: 
It is unlikely that that ship is going to have to do that 
mission set, and we recommend that the ship go on the patrol on 
time. Admiral Aquilino approved that. It had to go through him. 
We have institutionalized that, where before that decision was 
made at a much lower level, back in 2016 and 2017. That--and 
then we--and here is the plan of how we are going to get that 
final small certification done. That is a sea change in the way 
that we were doing business.
    Mr. Lamborn. Okay. Thank you. Mr. Chairman, I yield back.
    Mr. Courtney. Great. Thank you, Admiral. That is the 
desired effect I think everyone was working towards. So, I 
appreciate that.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for your testimony today. Both Mr. Garamendi and 
Mr. Lamborn touched on a lot of what I was going to bring up, 
but I want to be clear--and first of all, my thoughts and 
prayers are with the service members whose lives were lost and 
with their families. We owe it to them to make sure that we 
prevent these things from ever happening in the future.
    I just want to be clear in that when there were 
deficiencies reported on the Defense Readiness Reporting 
System, it appears that the commanding officer of the Hornet 
squadron consistently messaged deficiencies in training, 
manning, and maintenance. Yet they were still tasked to conduct 
missions that exceeded their capacity. How is it that that 
happened, and are you confident that we are going to be able to 
fix this?
    General Rudder. Yes, Congressman. I think that is the--if I 
were to kind of capture the three lines of effort [LOEs] to be 
able to address that is for the tasking. One is now that the 
operational commanders all the way up look at the operational 
tasking and make sure that readiness is built into that. So, we 
don't have back-to-back exercises.
    In some cases, because of what countries, everybody wants 
to work with--as the Admiral said, everyone wants to welcome 
the Marines and sailors out there, but we have to manage that 
and be selfish, if you will, to make sure that we are building 
in readiness, so that our crews can train for the high-end 
fight. That is LOE number one for III MEF right now.
    LOE number two is the maintenance focus. One, get the right 
manpower out there. Make sure they have the right training. And 
then we have this new program that we put into place out there 
called a maintenance capacity model that gives--you put in the 
type of maintenance Marines that you have in a particular 
squadron, and out the other end it spits out what you can fly 
with that squadron within the realm of the amount of 
maintenance and qualifications and numbers of maintenance 
personnel you have on the flight line.
    And then, finally, they put in kind of a standardization 
and--standardization and compliance model. What that really 
does is go back to the drawing board, do spot checks, and they 
have done it with every squadron in the Pacific right now on 
maintenance, safety, and operations to make sure that within 
naval aviation, the policies, the procedures, and all the 
things we hold dear to our heart, that typically are the ones 
that we skimp on in some cases to make the mission happy--are 
complied to in all cases. Those are the three LOEs that I am 
confident that the III MEF commanders put into place that is in 
effect today.
    Mr. Langevin. Well, we are going to be following this 
closely. Thank you. I yield back.
    Mr. Courtney. Thank you, Mr. Langevin.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And Admiral Brown and General Rudder, thank you so much for 
your dedicated service to our country. We note your dedication 
and how much it means to all of us, your service.
    With the tragic events of 2017 and 2018, which has spurred, 
of course, these hearings, gives us an opportunity to improve 
readiness for our world-class military. I sadly visited the USS 
Fitzgerald in Japan and saw where the sailors were tragically 
killed, and I appreciate your efforts to make sure that such a 
gruesome event never happens again.
    And in line with that, General Rudder, in last year's 
committee report accompanying the NDAA, I included language on 
mitigating risks related to mid-air collisions and terrain 
crashes. The committee encouraged the Navy and Marine Corps to 
consider a collision awareness system that can leverage 
existing infrastructure and air combat maneuvering 
instrumentation systems that would allow range training 
officers and pilots to receive notification if an imminent mid-
air or terrain crash is assessed.
    We also directed the Navy to analyze the cost and 
feasibility of building out such a collision awareness system 
on air combat maneuvering instrumentation, ACMI, equipment on 
combat aircraft. What are your thoughts on improved 
capabilities to avoid such aircraft mishaps and on leveraging 
ACMI equipment toward that end? General Rudder.
    General Rudder. Yeah, if I am thinking about the air-ground 
collision avoidance system that I think we were referencing in 
that report, for the F-35, we are writing it in. And for the F-
18, we are writing it in. We did get some marks last year in 
those particular funding we put in for that, but we are 
reattacking it this year. But that is--and that is if you 
depart controlled flight with an airplane, the logic of that 
airplane will right you--will right that airplane to give you 
time to recover. Or if you are in a G-LOC [G-force induced loss 
of consciousness], if you are pulling Gs and you black out, it 
gives it logic to be able to do that.
    On the other piece of that, for our V-22s, for CC-RAM 
[Common Configuration-Readiness and Modernization], much like 
we have a collision avoidance system in a KC-130, we are 
putting that in our V-22s as well as we run them through the 
retrofit line up in Boeing in Philadelphia.
    Mr. Wilson. Well, I am glad to hear the effort is being 
made.
    And, Admiral Brown, the National Defense Strategy relies on 
forward-deployed fleets. With regard to problems plaguing the 
navigational and radar systems aboard the USS Fitzgerald and 
McCain, I was deeply concerned about the vulnerabilities of 
these systems to jamming and interference from China. As we 
pivot toward a focus on great power competition, we know that 
China is investing in technologies that attack our cyber, 
navigational, and GPS [Global Position System] systems. How is 
the Navy protecting these systems from attack?
    Admiral Brown. Yes, sir. We have a very robust and 
sophisticated methodology to prevent the ships from being 
susceptible to cyberattacks. And primarily it is to ensure that 
the programs that you are operating have the correct security 
patches installed as designated by NAVWAR [Naval Information 
Warfare Systems Command], and they understand what the 
vulnerabilities are, they build those security patches, and as 
long as the ships do their job--and I track this at my level--
we are then protected from cyberattacks from outside.
    Mr. Wilson. And that is encouraging because the 
capabilities, as we see, of near-peer competitors around the 
world, we have got to be prepared. And, also, Admiral, inherent 
to fleet readiness is the friction between force generation and 
operations. In your testimony, you mentioned the Forward 
Deployed Naval Forces Japan units following a tiered Optimized 
Fleet Response Plan while implementing Strategic Readiness 
Review [SRR] and Comprehensive Review [CR] maintenance and 
training improvements. What is the greatest risk associated 
with these maintenance and training schedules, and what is the 
command doing to mitigate the risk?
    Admiral Brown. So, one of the results of the SRR and the CR 
is, we actually developed an OFRP Japan schedule that lays in 
two--out of the 3-year period, lays in two significant 
maintenance periods. One of them is called a SIA, which is a 
ship incremental availability. It is kind of like a super CMAV, 
which is our continuous maintenance availabilities, and then 
there is a selective restricted availability that would last 3 
to 6 months.
    Based on--and those are now written into the ship schedule, 
where before operations would often trump the maintenance 
requirement, and that maintenance would keep getting deferred. 
So then, if you have a ship that has been over in the FDNF 
force for 10 or 12 years, and it is not getting the maintenance 
that it is required to do, it is really not a capable platform 
anymore. So, we have inculcated that into the schedules now.
    Mr. Wilson. As a grateful military dad, I appreciate what 
you are doing for readiness and safety. Thank you very much.
    Mr. Courtney. Thank you, Mr. Wilson.
    Mr. Golden.
    Mr. Golden. Thank you, Mr. Chair.
    General Rudder, I was going to--there has been a lot of 
questions asked of both of you already, and I appreciate it 
very much. I think it has been an important conversation. I did 
have a secondary question I was going to ask you about in light 
of the Commandant's Planning Guidance [CPG] and looking forward 
to hearing from you about how you think the Marine Corps 
Aviation is going to need to adapt to meet that guidance, but I 
think obviously out of respect for the importance of this 
subject, we could put that off until another day. But maybe we 
could schedule a date, just hear your thoughts on that. Maybe 
something the committee might be interested in as well.
    But I thought, in light of the lessons learned that you 
have already shared, some of the steps that you shared with us, 
that have been taken to try and implement some of the fixes, 
just a straightforward question: How might you rate the current 
readiness of Marine All-Weather Fighter Attack Squadron 242 
today?
    General Rudder. They are still not up to where they should 
be. And we have been taking this year to rebuild them, to work 
on the manpower, to work on the jets. I think when I was 
looking at them in the past few weeks and today, they were up 
around 80 percent, which is really good. So, it is good to see 
that. We are taking a lot of different steps to try to put 
material in the hands of the Marines. We have got another--we 
had a lot of visits out there. The maintenance capacity model 
that I talked about is in play, and we are trying to get them 
some more Marines out there to kind of get them to where they 
should be, so they can, you know, get back up on step. But we 
have still got a lot of work to do.
    And back to your question, just a general comment on the 
Commandant CPG, on this subject in the Pacific is, he has put 
out a lot of direction and guidance in forms of written 
documentation out to the fleet, and he is trying to change the 
mind-set of the United States Marine Corps that III MEF is 
where--III MEF, the Pacific is where we need to send our best 
and brightest, and III MEF is his focus. When he gets up in the 
morning, he thinks about that theater and how we can get the 
right capabilities out there with the right readiness.
    Mr. Golden. Thank you very much for your efforts and the 
frank response and, again, look forward to finding time to talk 
more about that. I had no doubt that you would find a way to 
work that into your response a little bit. So thank you, sir.
    Mr. Courtney. Great. Thank you, Mr. Golden.
    Mr. Conaway.
    Mr. Conaway. [Off mic] The NDAA 2019, 2019 NDAA required 
specialists, ships, [off mic] and can you tell me how many of 
those have been planned and executed? [Off mic]
    Admiral Brown. Sir, I don't know the exact number. I know 
that since that NDAA came out, all the INSURVs [Board of 
Inspection and Survey inspections] that we have done have been 
short notice or minimal notice INSURVs. I will have to take 
that for the record and get you the exact number. But since 
that--or since that law came out, all our INSURVs are short 
notice or minimal notice.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Conaway. [Off mic] General Rudder, I understand 
refueling to be a rather complicated issue, and it seems odd to 
me--I know you can't talk about specifics on the accident--that 
a forward-deployed ``fight tonight'' unit that you have a pilot 
who only had one daytime refueling trying to do it at night 
when the requirement is six daytime. So, the evaluation, where 
should that training be done, refueling? Should it be done 
forward deployed, or should it be done as part of normal 
aviation training? Again, I am a novice at this when it comes 
to understanding why we have a pilot that inexperienced doing 
something like that at night.
    General Rudder. Yeah. So, as we look at, you know, the 
aerial refueling history of that particular pilot, as the 
command investigation brings out, is that, you know, the first 
time he tanked at night was over the 365-day mark, and then the 
first time he did the day was in that same area.
    But throughout the year of that year leading up to 
December, he had tanked day 11 times, and inside those 11 times 
I don't have the numbers of plugs he did on and off the plug, 
but he was certainly day qualified, per all the indications 
that he had done. And then his last tanking was just a few 
weeks before he did the night tanking.
    So, if you look--and then he flew night, he flew a night 
mission. He was not very--right, again, proficiency. I am not 
going to try to dance around this proficiency thing. 
Qualification, yes. Proficient, not where we would like a 
Marine aviator to be. But in that environment, with the lead as 
a tanker instructor, he was qualified to go up there and tank. 
And during this, he actually successfully tanked and would 
have, you know--and got off there. It is the post tanking is 
where we saw the issue.
    Mr. Conaway. Well, I might have misunderstood the briefing 
document. It read as if that was his very first refueling ever, 
and that was not the case. He had done that earlier. Okay, that 
makes sense.
    You had mentioned changing from a 2-year to 3-year 
unaccompanied tour, but you also talked about married 
maintenance guys. Would you have the stress on the families 
that moving from a 2 to 3? They would have an accompanied tour 
in Japan with the maintenance guys versus a 2-year 
unaccompanied? Was the unaccompanied/accompanied simply the 
fact that the unaccompanied doesn't have a spouse that would 
move?
    General Rudder. That is correct. I mean, by the joint 
travel regulations, you kind of fit into those policy bins. But 
now with unaccompanied, without spouse, first-termers, where we 
used to do 2 years, we are now doing 3 years with those 
particular ones.
    Mr. Conaway. This would be a young maintenance operator who 
has a spouse and they wouldn't go? I mean, there is stress on 
the families that we are concerned about, obviously. Three 
years away from home versus 2 years away from home is a 
different deal. Is that given a consideration, the stress on 
marriages that would occur?
    General Rudder. Yeah. Well, if you are accompanied with 
spouse, with dog, with kids, you are going for 3 years, yeah. 
That has been the standard. That hasn't changed. But, you know, 
back to your point, I think it is stressful. You know, to 
forward deploy Navy, Marine, Army, and Air Force, and, you 
know, with my counterparts, with the manpower models that we 
do, we do our moving, our summer move period and off-cycle move 
period, you are picking up the dog, the cat, the kids, the 
family, and you are being sent to Japan to buy cars, to get the 
license, and go into this environment for 3 years.
    Now, I will tell you that some people go kicking and 
screaming, and when they get there, they don't want to leave. 
But there is stress on the families. There is stress on the 
force when you put a family forward on a regular basis. And 
this churns. I mean, as we speak today, there is somebody 
picking up and going to Japan or going to Korea or going to 
other places around the world.
    So, I would say that, for the families, God bless them all, 
because our families do a very good job and our spouses and the 
kids and the dog. They are troopers.
    Mr. Conaway. I appreciate that.
    And, Admiral, if you would get us the information on the 
specifics of those no-notice inspections.
    Admiral Brown. Yes.
    Mr. Conaway. Thank you, Chairman.
    Mr. Courtney. Thank you, Mr. Conaway.
    Mrs. Luria.
    Mrs. Luria. Thank you.
    And, Admiral Brown, I wanted to start out by following up 
with a similar question that I asked Admiral Aquilino last year 
when we were talking about a similar topic. And since you gave 
Mr. Wittman a grade earlier on the manning, fit, and fill, I 
was wondering if you could give us a letter grade on where you 
think we are with the combat effectiveness of the surface Navy.
    Admiral Brown. I will give us an A right now in the combat 
effectiveness. You know, we not only went after the 
recommendations that were in the SRR and the CR, but we really 
went after making sure we were providing the right training at 
the right time and building that combat effectiveness.
    Mrs. Luria. So, I will just quote. In 2018, a comprehensive 
test of seamanship skills of 164 junior surface warfare 
officers was conducted, and you said the results were sobering. 
Of the 164 officers assessed, only 27 completed with no 
concerns, 108 with some, 29 had significant concerns, and that 
was 18 months ago.
    In February 2019, in the 1-year report from the Readiness 
Council, the concluding paragraph said: ``One year in, it would 
be naive to believe we are close to completing work. However, 
due to the efforts of many professionals around the fleet, we 
are currently safe to operate and a more effective Navy than we 
were a year ago.''
    Does that assessment in February of 2019 of safe to operate 
align with the description that you just gave of an A?
    Admiral Brown. Yes, ma'am, I believe it does. And one of 
the things that we did right off the bat is we did ready-for-
sea assessments primarily in the FDNF Japan forces. That 
program was so good, we took it to the entire fleet. And then 
the ready-for-sea assessment was so good we actually wrote it 
into the Surface Force Training and Readiness Manual.
    So, the ships, the maritime warfare training that we are 
giving, the navigation seamanship training changes that we have 
made have had significantly positive impacts, I believe, into 
the fleet.
    Mrs. Luria. So, seamanship and navigation is one area. I 
read recently that at the SNA [Surface Navy Association] 
Symposium in another article here from U.S. Naval Institute 
News says that you are doing a review to look closely at that 
skills training provided to officers for combat effectiveness 
and warfighting.
    Admiral Brown. That is correct.
    Mrs. Luria. Can you comment on that?
    Admiral Brown. So the rigor that we put behind navigation, 
seamanship, and ship handling was so good, in my opinion, that 
we needed to bring it to the maritime warfare training to 
ensure that we were preparing our officers, whether they were 
ensigns or department heads all the way up to our warfare 
commanders, that we actually had the maritime warfare training 
correct for the future fight.
    Rear Admiral Scott Robinson, who is the commander of the 
Surface and Mine Warfare Development Center, is leading that 
study for me. So, we are putting the same rigor behind that 
training that we put behind the navigation and seamanship 
training.
    Mrs. Luria. So, you have talked a lot about the renewed 
focus on specialty officer training, and I think I read that 
there are 361 additional hours of training that will eventually 
be available for these officers. How much of that training is 
being conducted at sea?
    Admiral Brown. So, the majority of that training is being 
conducted in our state-of-the-art navigation and seamanship 
training facilities.
    Mrs. Luria. And in Norfolk, Virginia, that facility will 
come online in fiscal year----
    Admiral Brown. So, I have a navigation and seamanship 
trainer that is already there. We have updated that to provide 
bridge and CIC [combat information center] integration 
training.
    Mrs. Luria. And does that apply to all baselines and 
classes of ships?
    Admiral Brown. Yes, it does. So, you can load in whatever 
ship that you are serving on into that trainer. So, if you are 
serving on an LPD [amphibious transport dock], you have an LPD 
that is loaded into the trainer.
    Mrs. Luria. So that would assume that every LPD or every 
DDG [guided-missile destroyer] or every cruiser had the same 
configuration on their bridge.
    Admiral Brown. Well, but see, for the officer training, as 
you remember, the officers give orders. And so, what we are 
really training the officers in how to stand the junior officer 
of the deck or the officer of the deck watch. We do----
    Mrs. Luria. That includes using a radar scope.
    Admiral Brown. Absolutely. So, the radar emulators, if you 
look at that, it is an ARPA [Automatic Radar Plotting Aid] and 
it is representative of the ARPA that are on our surface ships. 
The SPS-73 [type of ARPA], for example, is a----
    Mrs. Luria. That same baseline exists across all ships that 
people are being trained on, because if I recall, going back to 
the recommendations from these reports, is that one of the 
things that has been problematic is there is not consistency 
across----
    Admiral Brown. Right.
    Mrs. Luria [continuing]. Single classes of ships for that 
type of equipment. You get an operator who comes in who may 
have been familiar with a similar but not the same, and you get 
this inconsistency in training. So how are we addressing that?
    Admiral Brown. We are actually addressing that. For 
example, by the end of this year, every ship will be operating 
on VMS [Voyage Management System] 9.3 or 9.4. That is a 
significant change. The variances between 9.3 and 9.4 is really 
just now the operating system. One is operating on Windows 10. 
The other one is operating on Windows 7 or XP. So that is a 
significant change, where throughout the entire fleet, we had 
9.0, 9.1, 9.1.2.
    The other thing is we put on a tertiary radar, a commercial 
off-the-shelf radar. So, every single ship has the exact same 
commercial off-the-shelf radar in their pilot house, where 
before ship A might have a Furuno, ship B might have a 
Raytheon.
    So, although, you know, a pilot house on a DDG would look 
different than a pilot house on a cruiser, what you really want 
to have is the same similar systems so that you are not 
relearning the navigation system.
    Mrs. Luria. I know that we are out of time here and, 
hopefully, we will have a second round. Does that apply to 
steering systems as well?
    Admiral Brown. Well, within the class of ship, it does. So, 
we are upgrading all the DDGs, and all those DDGs will have the 
same integrated bridge navigation system as they get through 
their midlife upgrade.
    Mr. Courtney. Great. Thank you. We will, hopefully, get 
another round.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General, I think it was Congressman Golden that asked you 
about what the current status was of VMFA-242, and I couldn't 
hear the answer on the percentage. What percent did you assess 
them at?
    General Rudder. For the readiness today, there were 10 out 
of 12 up jets, which is pretty good. Their manpower, they are 
still a few short of some qualifications that we are working on 
right now. But if I look at the manpower, they are getting back 
to where they should be as a normal squadron.
    Where we still need some work to do is make sure that we 
can get to where they can train to their mission-essential task 
list for an F-18 squadron, which includes, you know, eight of 
the missions, certainly at least 70 percent of those missions 
to get them into what we would call a T2 [readiness rating] 
environment.
    Mr. Scott. Okay. But you gave him a specific number of 70 
percent or 80 percent. I just couldn't hear exactly what 
number.
    General Rudder. Yeah. They were at an 80 percent.
    Mr. Scott. Eighty percent, okay. Thank you.
    I want to read something to you. I had this marked as well. 
But in our notes, it says that the pilot did not have the 
requisite six daytime contacts with the fuel drogue before 
performing night refueling. He had only performed one daytime 
contact. And you said that is not accurate, he had actually 11 
contacts.
    General Rudder. So, what the investigation focused on is 
his initial nighttime X. His initial nighttime X was 517 days 
before this mission.
    Mr. Scott. Okay.
    General Rudder. And on that, it was said in his 
qualification that he only had one plug, where the F-18 T&R 
[training and readiness] says you are supposed to have six. 
Now, depending upon where you go, sometimes your instructor 
goes: Hey, that is the best plug I have ever seen; you are 
qualified.
    In this case, that is what he did, you know, over 500 days 
ago before that.
    So, if you take that, because that plug was out of the 365-
day window--you have to be inside a year window--it really is 
interesting, but, again, if we look at the qualification 
required for him to go up and do this plug a year later, he had 
the requisite day plugs--like I say, 11 times on tankers--
before he went back into the night environment, so with an 
instructor lead. So, technically, he was qualified to go ahead 
and plug on that airplane at night.
    Mr. Scott. So, the 13.1 hours that he had in the last 90 
days, is that consistent with that unit? Did all of the pilots 
have around the same flight time?
    Admiral Brown. Yeah. I think he was probably at the low end 
of that, but they were all around that same area. I think 
because of the Australian piece, those 90 days in there, that 
unit was really--but there are a couple, a couple other ones 
that were lower and a couple that were higher.
    Mr. Scott. Okay. So, the commanding officer would have been 
a lieutenant colonel?
    General Rudder. Yes.
    Mr. Scott. Okay. And just reading through the notes here, 
it says that inoperative locator beacons in the ejection seat. 
And so, as I read through this, it looks like he had requested 
them from the supply chain, had not been able to get the 
locator beacons, and so he bought a commercial version of it 
and then was ordered not to use those. Is that accurate?
    General Rudder. There are two things there. One is the 
locator beacon and the CSEL [Combat Survivor/Evader Locator] 
radio that are in the normal kit for TACAIR and really the 
CSELs for all aviation, but for the locator beacon that is 
referenced as not being operable, it was operable, but there is 
a longstanding complaint when you eject and you get in a chute, 
you release your seat pan. In the seat pan is where your URT-
140 [type of CSEL] is. That begins emitting at that particular 
time. The problem with that is, when you hit the water, the 
procedure is--and it was executed by the backseater in this 
case--is to get in your raft--I will get to the CSEL radio in a 
minute--and then pull your URT-140 out of the water. It does 
not emit when it is underwater, and that has been the complaint 
that people have given.
    Mr. Scott. If I may, it says: An inoperative location 
beacon inside the ejection seat, this had previously been 
identified. The commanding officer had purchased civilian 
beacons for the air crew, but was ordered to stop using them 
during the inspection just weeks ago.
    Did the Marine Corps supply them with non-civilian beacons 
to replace the ones that were inoperative?
    General Rudder. The one that is in the seat, the URT-140, 
that beacon itself is T-6, T-45, all of the F-18s, Harrier; 
that is a standard NAVAIR [Naval Air Systems Command]-approved 
beacon. So that is in the ejection seat itself.
    So now the beacon you are talking about, there was a 
purchase of kind of a fisherman's or a camper beacon off the 
shelf, a COTS [commercial off-the-shelf] solution, if you will, 
off-the-shelf system that was in that particular organization. 
And that still had to be turned on. But those were, in fact, 
taken away during an inspection, during one of their 
maintenance inspections, as unauthorized gear.
    Mr. Scott. My time has expired. My question is, if I may, 
Mr. Chairman, it seems that the commanding officer was 
expressing concerns about the readiness, and if the Marine 
Corps is not getting the commanding officer the parts that he 
needs to bring his readiness up, I am not sure that taking it 
out on the commanding officer is necessarily where the blame 
needs to be laid.
    But I certainly respect both of you, and thank you for your 
time.
    Mr. Courtney. Thank you, Mr. Scott. And I think, again, 
that is one of those questions that the command investigation, 
we are going to be looking at when the time comes.
    Mr. Kim.
    Mr. Kim. Hi. Thank you so much for coming. This question is 
for Admiral Brown. So, as I was going through some of the 
details about the incidents, you know, it became clear that, 
you know, not just the concerns about the personnel on board, 
but just about mission-critical equipment that was on board.
    For instance, I was learning about the SPY-1 radar array, 
that there was some damage done to that. Something like that 
could potentially render these types of vessels, you know, 
mission kill. The concern that was kind of raised was it looked 
like we didn't necessarily have spares on hand, and that some 
of these had to be recommissioned from sort of new vessels and 
others to be able to backfill that.
    So, I guess I am a little concerned about the shortage that 
I was learning about and wanted to kind of hear your thoughts 
on what the Navy's plans are with regards to these shortages 
like with SPY-1 radars.
    Admiral Brown. Yes, sir. You bring up a really valid point. 
A very expensive piece of equipment, a SPY-1 radar array, 
complicated to make and very expensive. So, we don't 
necessarily have a large, you know, off-the-shelf spare program 
for something like that.
    So, what we did in the Fitzgerald case, because her array 
was damaged, is we took it from a new construction ship. And 
then the organization is able to supply that radar to the new 
construction ship at the right time when that ship needs that 
array. And that is how we handled that particular repair.
    Mr. Kim. Now, my understanding is, though, that, you know, 
if you don't have these spares and if we are moving forward, 
and there are additional problems going forward, whether--
hopefully, not these types of incidents but other types of 
damage that can be done, is that something that could render a 
ship decommissioned or mission kill if there is not a spare 
available?
    Admiral Brown. For that particular array, it could, but 
there are four arrays on a ship, and there are things that you 
can do. I mean, sometimes there are casualties that occur in 
the natural operation of the ship that could potentially bring 
a portion of the array down, and we have tactics, techniques, 
and procedures to combat that.
    Mr. Kim. Okay.
    Admiral Brown. And where we are still able to fight the 
ship.
    Mr. Kim. Sure. So, from what I gather from what you have 
said so far, is there sort of a plan in place to have sort of 
battle spares for something like a SPY-1, or is that now in the 
works right now?
    Admiral Brown. I would have to--I am going to have to take 
that for the record, because I am going to have to go back to 
the program office and actually get the data on what their plan 
is. I don't have that information off the top of my head.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Kim. We will work with you to get that. I appreciate 
your thoughts today. Thank you so much.
    I yield back.
    Mr. Courtney. Thank you, Mr. Kim.
    Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman.
    Thanks to both of you for being here.
    And, Admiral Brown, it was noted in a 2017 GAO report that 
crew size reductions were contributing to readiness and safety 
issues. In your testimony on page 5, you note that there are 
now significantly more sailors on ships than during that time. 
You know, it seems like--wearing an old hat here, it seems like 
for decades we have been trying to reduce the crew complement 
on ships to make it more warfighting and not have as many 
sailors aboard, you know, if we had overkill.
    How has this increase now in the manning level affected the 
operations from the logistics support standpoint, and how does 
that impact our growth in seabasing?
    Admiral Brown. Well, as you can imagine, if there are more 
people on board the ship to do more work, that means there is 
less stress on the individual sailor to do that type of work. 
For example, on a DDG, there are 25 more sailors on board a DDG 
today than there were in 2012. And by 2023, there will be a 
total increase of 45 sailors.
    So, we have a command called NAVMAC [Navy Manpower Analysis 
Center] that does the studies on, hey, what is the right 
manning that is required on the ship. One of the things that we 
did differently this time when we looked at DDG manning is we 
actually looked at the in-port workload and how did that drive 
the manning. Actually, the in-port workload is what drove the 
increase from 8 sailors, an additional 8 sailors that we put on 
in 2019 that is going to now bring us up to an additional 45 
sailors by 2023.
    The other thing that we did when they did the work study 
is, out of a standard workweek, we reduced the available hours 
for work from 70 to 67. So that then in itself feeds into the 
equation that determines the required number of sailors on a 
ship.
    Mr. Bergman. Are we doing anything with simulation, you 
know, crew coordination and all that, to see how the crew 
functioning is, you know, using simulation as opposed to, you 
know, actual ship time?
    Admiral Brown. Well, we actually did--no, we didn't do--we 
are not doing simulation for crew work. What we did do, though, 
there was a study that was run out of Naval Postgraduate School 
where we took one DDG and we used that as the control ship, and 
then we took another DDG, and during the basic phase of 
training, we manned them up to a much higher level. And what we 
wanted to see, was there a difference in performance between 
the two ships.
    There really wasn't a marked difference in the performance 
of the two ships, but, as you can expect, if one ship has more 
sailors, those sailors said: Well, we were less tired than the 
other sailors.
    It was really kind of a subjective thing.
    I am going to go--I am going to redo that study. There were 
some control issues, and I wasn't really happy with the way 
that we did certain things. And a schedule got delayed, and we 
didn't adjust for that schedule delay. So, I think that there 
might be something there.
    Mr. Bergman. Okay, thank you.
    General Rudder, you know, as we bring new aircraft 
platforms into the fleet, are the maintenance challenges--you 
know, we always talk about going from legacy systems to the 
next-gen systems and that how do we ensure that our maintainers 
are ready to go, know what they are doing.
    You talked before about the first-termers, getting them up 
to speed with their certifications, et cetera, et cetera. And 
as an example, you know, for the CH-53K we have got coming 
online here in a couple years, can you describe how that kind 
of a platform was designed with readiness and safety in mind?
    Are there features in making it easier to maintain, more 
survivable, overall more efficient, maybe overall--again, going 
back to the simulation piece and training, how we are doing 
bringing new platforms online, using the K as an example?
    General Rudder. The K is a very interesting example because 
it was designed from the ground up with the maintainer in mind 
so that, in the field or on a ship, they can replace and work 
on components, and they were in the area. So, you know, one of 
the things we did to make sure that that continues to be 
furthered is what we would call the log [logistics] demo.
    So, as they are testing the developmental test work at Pax 
[Patuxent] River and the Marines are kind of assessing and 
watching what is going on there, we have a 53-K sitting in a 
hangar down in New River. And that log demo, all those Marines 
are doing is taking it apart and putting it back together and 
modifying the manuals as they go along to make sure that, if 
there are little things that need to happen, a latch or an 
access panel or something of that nature, it gets put in. So, 
in that regard to the maintenance side, it is being designed to 
be maintainer-friendly, Marine-friendly, to be worked in the 
field.
    For survivability, we have probably shot more ordnance at 
this airplane and the components than probably any other 
airplane from NAVAIR. And right now, at the highest 
survivability rates, as far as being able to take a caliber 
round of various different types of ordnance, this aircraft has 
fared very well. And if you look at it, you know, the size of 
it, it can take quite an extensive amount of damage before it 
has to land or it sustains damage that makes it unflyable. So, 
we are pretty happy with the way that aspect of it is going.
    Mr. Bergman. Thank you.
    Mr. Chairman, I yield back.
    Mr. Courtney. Thank you, Mr. Bergman.
    Mr. Vela.
    Mr. Vela. Yes. Admiral Brown, the Fitzgerald incident hit 
home for the people that I represent because back in the summer 
of 2017, I attended Gunner Mate 1st Class Noe Hernandez's 
funeral, and shortly thereafter visited Yokosuka, where both 
the Fitzgerald and McCain were, and visited with the rescue 
crew that was there during the Fitzgerald incident. Shortly 
after his death, his wife said this: When the hero dies, nobody 
ever remembers him. The families remember. They pay the price.
    So let me start by asking, now that you have been at the 
helm of Surface Forces for nearly 2 years, what can we tell 
Mrs. Hernandez today that what has been done in 2019 to ensure 
that ships can effectively balance their risks between 
readiness and operating safely at sea?
    Admiral Brown. Sir, that is a great question. And the 
answer to that is we put risk management at the right level 
now. We had junior officers assuming risk that really wasn't 
their risk to assume. It is really the fleet commander's risk. 
And so we have inculcated the processes.
    We have memorialized the processes through instructions and 
directives, and we have created the firebreaks between force 
generation and force employment. But if there is any risk that 
must be taken, that risk now resides at the right place. And 
that is how I believe, going forward, is our best effort to 
prevent a John S. McCain or a USS Fitzgerald event happening in 
the future.
    Mr. Vela. In 2019, how many ships went to sea with 
certification waivers?
    Admiral Brown. None.
    Mr. Vela. And how many ships did not go to sea on time 
because they were not ready?
    Admiral Brown. There were a handful that we delayed, 
whether it was because of a maintenance issue where they didn't 
have the proper maintenance equipment redundancy or because 
they were going to get shorted in training.
    So, for example, I will use the DDG that was in the yards 
in Hawaii. We are challenged with the workforce in Hawaii, and 
we had three major CNO [Chief of Naval Operations] 
Availabilities happening at the same time. Perhaps, you know, 5 
or 6 years ago, we would have pushed that ship out and 
shortened that ship's basic phase of training cycle and kind of 
put that on the backs of the crew. We did not do that this 
time. We shifted that ship to a different strike group.
    That is an example of how we are not doing business the old 
ways and that we are actually delaying ships from performing 
missions if they are not ready to perform those missions.
    Mr. Vela. So, what has been done to mitigate the 
administrative burden placed on ships at sea so that they can 
focus on operating at sea safely?
    Admiral Brown. So, as part of the SRR, I was tasked or the 
Navy was tasked to look at the various inspection 
certifications and assist visits that we do on ships. I not 
only took part in that, I led that for the surface force from 
my headquarters.
    We had an overall reduction of 30 percent of intrusive 
inspection, certification, and assist visits, for the most part 
that were duplicative in nature. In other words, the ship went 
through that same inspection 3 months earlier under somebody 
else's command authority and then was having the same stuff 
looked at. That produced a lot of time savings that we were 
then able to give back to the CO of the ship to focus on other 
things.
    So there has been an across the board, from a DDG or CG 
[guided-missile cruiser], LSD [landing ship, dock], LPD, a 30 
percent reduction. We inculcated that in the rewrite of the 
Surface Force Readiness Manual to the Surface Force Training 
and Readiness Manual. So now that is memorialized, and we don't 
allow that mission growth. Although I led that, that was 
approved by the two fleet commanders at their fleet review 
board.
    Mr. Vela. So, in your view, what value has the Naval 
Surface Group Western Pacific provided, and how have you 
attempted to minimize the burdensome reporting requirements?
    Admiral Brown. So, a huge impact on the readiness of our 
forward-deployed forces. Naval Surface Group Western Pacific is 
my executive agent in Japan, and I have empowered that 
commanding officer, who is a sequential major commander, so he 
is a post major command captain, I have empowered him to make 
decisions. And because of the tyranny of the international 
dateline and time zones, he does not have to call home to me.
    He knows what my priorities are, he knows what my standards 
are, and he is able to make decisions. He is in an ADCON role, 
administrative control role. He is not in the operational chain 
of command, but his voice is very loud as he is working with 
DESRON 15 [Destroyer Squadron 15] and CTF 70 [Commander, Task 
Force 70] in the work-up of their ships. His voice is very 
loud, because it has got my voice behind it.
    Mr. Vela. Thank you, Admiral.
    Mr. Courtney. Thank you, Mr. Vela.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, gentlemen, for being here.
    Lieutenant General Rudder, just to follow up on some 
questions from my colleagues, so I thought the issue with the 
night refueling qualification was not that the captain in this 
case hadn't performed--well, that he had not performed night 
refueling qualifications, but there was a glitch in the system 
that showed that he had, correct?
    General Rudder. That is correct.
    Mr. Gallagher. And has that glitch been fixed? And I 
apologize if I missed this earlier.
    General Rudder. No, you didn't, and thank you for the 
question. The glitch was as a result of discovering the system 
was what we call chaining events. That means it was saying, by 
doing these particular numbers in a T&R syllabus, it was saying 
that you are qualified to do a higher level number further down 
the syllabus, if that makes any sense.
    We took that out in 2016 after kind of a like mishap with 
tanking, and they fixed it, but because of a technical issue 
with that, the icon that represents chaining was not put into 
the right area. So, if you were to have that on the schedule, 
it was still chaining daytime events saying you are qualified 
for nighttime events.
    Mr. Gallagher. Which is a bad thing. So, can we say now 
that we no longer have that problem with chaining and icon?
    General Rudder. We did. We went back to our training 
command, and they reviewed all the icons within all the T&Rs 
for all the airplanes to do that.
    Mr. Gallagher. So, you feel like we fixed that basic 
glitch?
    General Rudder. We have fixed that basic----
    Mr. Gallagher. And on the location beacon, so you are 
saying that the problem isn't that the beacons don't work. It 
is that they don't work underwater. So, in Captain Smith's 
case, he was able to take his radio, get it onto the raft and 
transmit, but in Captain Resilard's case, he could not, being 
physically impaired, and, therefore, his location beacon was 
insufficient to help him get rescued, correct?
    General Rudder. His location beacon, the URT-140, was 
underwater and that is the known deficiency. It does not 
transmit through the water to provide that.
    Mr. Gallagher. Well, in light of that deficiency, why not 
support a COTS alternative for a location beacon, even though 
it is not SOP [standard operating procedure] right now?
    General Rudder. Yeah. In preparing for this, we went 
through all the different COTS solutions that are out there and 
what the program office, what they have authorized and not 
authorized. And I can't give you a great answer on that.
    I know that we just approved, NAVAIR has just approved the 
use of a beacon, a physical strobe beacon that is saltwater-
activated, and they are being fielded out there right now. So 
whether you are incapacitated or you can't do the functions it 
requires--because you have the beacon that is underneath your 
seat, but you also have your CSEL radio, which allows you to 
broadcast emergency messages as well. But on top of that now, 
when you go in the water you have a salt-activated beacon, 
which at least gives you a strobe, and I think that would have 
helped.
    Mr. Gallagher. So, would it be fair to say we are still in 
the process of making a change that would correct the beacon 
problem?
    General Rudder. We are. They are still looking at different 
antennas. And I will offer, one of the things you will hear is 
that there are some airframes that have a beacon that works 
when it goes in the water. The F-35, actually, when we designed 
that seat, when that beacon goes in the water actually floats 
for a number of minutes to transmit. It is a very tighter 
ability to transmit a grid or location of the downed survivor 
to the joint recovery centers.
    Mr. Gallagher. Okay. So, the initial probe that I believe 
was led by Colonel Schoolfield, if I am saying that name 
correctly, put heavy blame on the command climate in the 
squadron. I think the term ``gross unprofessionalism'' was 
used. But it also drew what I think subsequently we have come 
to believe is a spurious correlation between that and Ambien 
use. In one case, there was a reference to a case of adultery 
that had actually nothing to do with the crash. But the report 
remains the only thing out there publicly.
    Are we going to correct the record if, indeed, there were 
inaccuracies or spurious correlations in that report?
    General Rudder. I think that is what the Consolidated 
Disposition Authority is. So, when we look at all the facts 
surrounding this particular event, much like they did with the 
McCain event, then, you know, Admiral Richardson and Admiral 
Moran, they pulled that up. So, when you say ``correct,'' I 
can't say for sure what is going to be the final disposition, 
but to your point, all that is being pulled up. And, again, as 
we speak, in a locked room at a destination not to be named, 
they are looking at all those facts that you are bringing up.
    Mr. Gallagher. And I am running out of time. I will get to 
it in the second round, hopefully. I think we have to weigh 
this. I know there are reasons for why we keep the safety 
review or the consolidated review confidential to encourage 
candor, but I wonder if we shouldn't consider publishing a lot 
of it and weighing the needs of candor versus the needs or the 
duty we have to the families to really get this out in the 
open, as painful as that may be. So, I just throw that out 
there.
    Mr. Courtney. Thank you, Mr. Gallagher. I mean, I can say 
that I am sure I speak for Mr. Garamendi, that these joint 
hearings are going to continue when that additional report is 
released, and we are going to look exactly at the questions 
that you identified.
    So, I think we have done the first round. We still have 
some members that are here. I am going to ask one question, and 
then I yield in the same order that we went through earlier.
    Admiral Brown, when we, you know, did the 2018 National 
Defense Authorization Act codification of the collision repair, 
you know, language recommendations, one of the things that I 
know Admiral Richardson himself sort of wrestled with was 
whether maybe it was time to just sort of get rid of the Inouye 
Amendment once and for all and just eliminate that carveout for 
the Pacific in terms of, you know, who decides to task a ship 
versus who decides in terms of whether a ship is ready.
    Last year I asked Admirals Aquilino and Grady to explain 
how readiness for deployment would be judged uniformly across 
the Pacific and Atlantic Fleet. They described how, under the 
new policies and procedures, there would be more of a joint 
effort to determine the readiness of ships to deploy and a 
willingness to halt the processes if there were shortfalls.
    So, from your perspective, has that continued to occur in 
the years since, and are you confident that there is both a 
unified standard across the fleet and a willingness to raise 
the flag if manning, training, and equipment readiness is not 
where it should be? Because, again, the committee sort of ended 
up in sort of a neutral position. It didn't sort of, you know, 
codify the Inouye Amendment, but it didn't repeal it either, 
and it sort of left it sort of in the hands of the Navy for 
now. And, again, I think for a lot of us, it was kind of a 
short leash, you know, that we were sort of kind of settled on 
when we did the final disposition of the legislation.
    Admiral Brown. So, I am very confident that the policies 
and the procedures are in place, that we are operating both 
fleets to one standard. There is only one standard. But we 
allow the two commanders to enforce that standard and ensure 
those standards are met for their fleets.
    The example that I like to use is, even if we go back to 
World War II, you know Admiral Nimitz spent the majority of his 
time on readiness. He allowed a number of fleet commanders, 
Spruance and Halsey, to actually fight the war and do the 
tactics, but he spent most of his energy on building readiness.
    I think that is important for a fleet commander to have 
that capability to do. We have one Navy and we have one fight, 
and the standards are the same whether you are deploying from 
the east coast in a strike group or deploying from the west 
coast in a strike group. You are going to deploy at 92/95 fit/
fill. You are going to deploy fully certified. And me and my 
counterpart are driving material readiness. The goal is to 
deploy CASREP [casualty report]-free, but really what we are 
getting after is we don't leave any redundancy on the pier.
    The Strike Group 4 and Strike Group 15, who are the 
training strike groups that work up the carrier strike groups, 
they operate under the same procedures. They are always trading 
best practices, lessons learned. These are the things that we 
are seeing on the east coast. These are the things that we are 
seeing on the west coast.
    More importantly, we are bringing that training regimen to 
FDNF. We have now done one advanced phase of training, SWAT, 
for FDNF ships. I am getting ready to do the next advanced 
phase of training. We had not done that before in the FDNF 
world. So, I am very confident that we know what the standard 
is. It is the same standard between the two coasts. We are 
training and meeting that standard.
    Mr. Courtney. Mr. Garamendi. I am sorry, I guess we go to 
Mr. Gallagher since no other Republican is here, and then we 
will come back to you. That is our committee rules.
    Mr. Gallagher. Are you going to hold that against me? It is 
rare that I get an opportunity like this.
    So just to follow up, Lieutenant General Rudder----
    Mr. Courtney. You get bonus points for staying.
    Mr. Gallagher. I have a punch card. I get a free coffee 
after 10.
    So, another one of the issues was that the pilots spent so 
much time in the water without rescue happening because we have 
an agreement with Japanese forces, but they are only available 
to help when they are actively training. And in this case, they 
weren't actively training, and so it took a while before we 
could get our allies to help us out and find the two downed 
pilots.
    Has that glitch, for lack of a better term, been fixed? 
Have we had any discussions with our Japanese partners to have 
a better SOP for how do we get our guys in the event of a 
terrible accident like this?
    General Rudder. Yeah. They have had, you know, several 
tabletop exercises. They have got now the procedures set up to 
be able to interact with the Japanese counterparts. The 
Japanese, quite honestly, are very good at doing this, but the 
coordination that we had with them was not as effective as it 
should have been. The ability to pick up the phone and call and 
coordinate with the right person to do that.
    The two different examples of that--and you are right, we 
had a pilot that was in the water way too long for various 
reasons. The pilot that was picked up, you are right, they were 
scheduled--they were on standby to launch in 2 hours, and they 
did that. And they sortied a bunch of aircraft and ships to do 
that, and 4 hours later, they picked up the survivor, the 
backseater. He was able to get in his raft and get his radio on 
and do all the things that we teach in water survival.
    On the second note, I think the ability with that sea state 
and being where it is was just challenging for them. So, I 
think the coordination we have with the Japanese right now--and 
they are very proud of their sea--stellar efforts. I will offer 
that. I can't pass up an opportunity to thank our Japanese 
counterparts for what they do and how many people they put out 
to sea to try to find our pilots and survivor, but we have 
managed that coordination, and we have got that much more. So, 
now, on a regular basis, the First Marine Air Wing is doing 
coordination exercises with their Japanese counterparts.
    Mr. Gallagher. Again, no one is blaming the Japanese. I 
think, if anything, over the last 3 years in particular, we 
have had a deepening partnership with them. I just think if, 
indeed, the status quo is still that they are only available to 
help if their forces are actively training, we need contingency 
plans for should something like this happen when they are not 
actively training.
    Will the Consolidated Board ask the question why there was 
a week of around-the-clock flights ordered so soon after the 
President quite publicly decided to cancel training exercises 
in light of his attempted rapprochement with the North Korean 
regime?
    General Rudder. Yes, Congressman, they will explore that.
    Mr. Gallagher. Okay. I guess the question to both of you as 
we kind of zoom out from the details of these incidents, I 
mean, in your opinion, based on everything the Navy has tried 
to do in the last few years, everything the Marine Corps is 
trying to do, do you think we are--and specifically our Marines 
and our sailors in INDOPACOM [United States Indo-Pacific 
Command], are we ready to fight tonight?
    Admiral Brown. Yes, sir.
    General Rudder. We are. I mean, fighting that particular 
fight, depending upon who you are talking about, has different 
personalities involved as far as the personality of that 
particular fight, but the training that we are conducting, the 
things that we are procuring, the readiness for our surface 
fleet and, quite honestly, looking at, you know, where the Army 
and Air Force and Marines and Navy and the coordination that is 
going on in PACOM right now and how we do that as an integrated 
fight is the best I have ever seen.
    Mr. Gallagher. Well, thank you, gentlemen, for your candor, 
and I yield my extra minute to Mr. Garamendi, if he would like 
it.
    Mr. Garamendi. I yield my time to Mrs. Luria.
    Mrs. Luria. Thank you, Mr. Garamendi.
    So, Admiral Brown, as the commander of Naval Surface 
Forces, would you say that you are responsible for surface 
force training and readiness?
    Admiral Brown. Yes, ma'am.
    Mrs. Luria. Okay. So just a few yes/no questions. Does 
Surface Warfare Officer School Command work for you?
    Admiral Brown. No, they do not.
    Mrs. Luria. Does the Navy's N1 that controls manning work 
for you?
    Admiral Brown. No, he does not.
    Mrs. Luria. Do you write the personnel qualification 
standards [PQS] for watchstanders?
    Admiral Brown. Yes, I do, through SWOS [Surface Warfare 
Officers School].
    Mrs. Luria. Okay. And do you select surface commanding 
officers or screen them personally?
    Admiral Brown. If I am serving on that particular board--I 
can only serve 1 year and I have to take a year off, but I do 
personally slate all our commanding officers.
    Mrs. Luria. Okay. So, with a couple exceptions of the 
pieces that go into the training, so the PQS standards, you 
personally review them?
    Admiral Brown. Well, my N7 does, and is involved in their 
development or modification.
    Mrs. Luria. And so, you are responsible for the unit level 
training once all members of the ship are assigned and come 
together on a ship?
    Admiral Brown. I own the basic and the advanced phase of 
training. The integrated phase of training is owned by the 
numbered fleet commander.
    Mrs. Luria. Okay. So, you own the basic phase, the advanced 
phase, and then the integrated phase, it transfers over to the 
fleet commander?
    Admiral Brown. The numbered fleet commander, yes, ma'am.
    Mrs. Luria. So, the reason I was asking, because there are 
a lot of different pieces here that come together. And at an 
event with you in 2018, Vice Admiral Balisle said, when he was 
speaking of what he referred to as the seven spokes of 
readiness, most of them are under the control of a unique and 
different person and none of these people ever come together 
under a centralized command group who has real cognizance and 
knowledge of what is going on of all of those spokes.
    And, you know, I recently read a testimony that Admiral 
Rickover gave to Congress in 1979, and, you know, as a nuke, I 
like to quote Admiral Rickover and refer back to, you know, his 
tenets of how he put together the nuclear power training 
program. He states that, unless you can point your finger at 
the one person who is responsible when something goes wrong, 
then you never really have anyone responsible. And we had an 
opportunity to kind of discuss this morning all these different 
pieces that come together.
    So, my understanding is that you have the Readiness Reform 
and Oversight Council now, where you have a lot of different 
groups coming together to coordinate these efforts. Are you in 
charge of that council?
    Admiral Brown. No, that council is run by the Vice Chief of 
Naval Operations and the Under Secretary of the Navy, but I am 
a member of the board.
    Mrs. Luria. Okay. So, I go back to the first question, 
because you said you were responsible for the training and the 
readiness of surface forces, but you are not responsible for 
the coordinating council that brings all of these groups 
together.
    Admiral Brown. No, but I think that that is held at the 
appropriate level. It is held at the ECH [Echelon] I level, and 
that is who I and the two ECH II commanders, the fleet 
commanders, Admiral Grady and Aquilino, they also serve on the 
board. So, the voice from the ECH III all the way up to the ECH 
I is heard.
    Mrs. Luria. Okay. So the reason I brought this up in this 
context is, going back to the reports that we had from the 
Comprehensive Review, one of the recommendations was that the 
Navy should establish a single echelon to higher headquarters 
responsible for the readiness generation of all forces.
    But the Strategic Readiness Review did not agree with that 
recommendation, and it was not done, and, instead, they 
recommended placing the three senior platform type commanders 
in Norfolk, co-located with Fleet Forces Command, which, since 
you are in San Diego, to my knowledge, has not also been done.
    Admiral Brown. Correct.
    Mrs. Luria. Can you speak to why the Navy has not carried 
out what their own recommendation to----
    Admiral Brown. So, the two reports were competing against 
each other. They both had different recommendations. So, the 
working group that was in charge of that, which was the Command 
and Control Working Group, studied it. And the decision was 
made at the ECH I level and actually was brought to CNO 
Richardson at the time that we were not going to do that. It 
was not going to provide any improvements in command and 
control that were necessary to prevent these incidents from 
happening in the future.
    Mrs. Luria. Thank you.
    I yield back the remainder of my time.
    Mr. Courtney. Great. I think we have exhausted every member 
who is here, in terms of questions. I know Mr. Wittman wanted 
to join us, but I think, you know, time is up.
    Mr. Garamendi. Have we exhausted the witnesses?
    Mr. Courtney. I think they are doing great. Anyway, I want 
to thank both the witnesses for being here. As I said, this has 
been sort of a multiyear project for both subcommittees. And, 
again, obviously with the report that is going to be issued 
sometime in the next 2 or 3 months, I know Mr. Garamendi and I 
and the staff will, you know, obviously be in close contact and 
we will probably do this again.
    And, again, I want to thank Admiral Brown for joining us 
here today. You know, the spacing of these hearings on the 
collisions are starting to get a little bit longer, but the 
interest level is still sky high. So, you know, we will stay in 
touch and, again, on a needs basis, I guess, hopefully, we will 
call you back or some of your colleagues. So, thank you all for 
being here.
    And, with that, I will adjourn the hearing.
    [Whereupon, at 4:21 p.m., the subcommittees were 
adjourned.]



      
=======================================================================




                            A P P E N D I X

                            February 5, 2020

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            February 5, 2020

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      

      
  

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            February 5, 2020

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. CONAWAY

    Admiral Brown. Minimum Notice MIs since Oct 1, 2019 76 planned in 
FY20 (53 surface, 21 submarine, 2 CVN) 23 executed thus far (7 
cancelled due to operational commitments) 18 surface ship (12 CNSP, 6 
CNSL) MIs executed 5 submarine (4 CSP, 1 CSL) MIs executed   [See page 
20.]
                                 ______
                                 
               RESPONSE TO QUESTION SUBMITTED BY MR. KIM
    Admiral Brown. Only three SPY-1 Arrays (USS COLE, USS FITZGERALD, 
USS OSCAR AUSTIN), one Signal Processor Group (USS CHANCELLORSVILLE), 
and one Transmitter Group (USS SAMPSON) required major-damage repairs 
since 2000. Previous SPY-1 major-damage repairs utilized assets from 
the production line vice a pool of ready battle spares. Navy conducted 
a deep dive into options for SPY-1 Radar system battle sparing. In the 
long-term, the FY20-FY25 Program of Record plans for Surface Ship 
Modernization and Decommissioning will enable Navy to harvest 
components for storage and employment as spares of critical equipment 
for use in cases of battle damage. Many lower level components are 
available for immediate harvest, but others are not available until 
future years due to the specific upgrade/replacement schedules for each 
Destroyer (DDG) or Cruiser (CG). If an immediate need for a critical 
spare arises in the interim, Navy can obtain those components from the 
various ashore engineering sites. Removal of that equipment for use in 
cases not involving battle damage is not prudent given the operational 
impact of respective shore sites.   [See page 26.]

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            February 5, 2020

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. Vice Admiral Brown, the Navy's November 2017 
Comprehensive Review of Recent Surface Force Incidents cited several 
operational, training, and readiness concerns regarding the fleet's 
legacy surface ship radar systems. Specifically, examples of the 
findings stated: ``. . . RADAR operators consistently failed to use the 
correct range scale or tune the RADAR to the appropriate settings . . 
.'' (Sect. 3.6.1--pg. 37), and that: ``. . . both SPS-73 and SPS-67 
RADARs on forward deployed Cruisers and Destroyers are reported as 
consistently below operational availability thresholds for the last two 
years.'' Further noting that, ``Their replacement, Next Generation 
Surface Search RADAR (NGSSR) has been delayed due to underfunding.'' 
(Sect. 7.2.2--pg. 84) The Review concluded with a recommended action 
to: ``Accelerate plans to replace aging military surface search RADARs 
and electronic navigation systems.'', and specifically, to: ``Fully 
fund development and implementation of Next Generation Surface Search 
RADAR.'' (Sect. 7.3 [NAVSEA, 31Mar2018]) As you know, the Next 
Generation Surface Search Radar is being designed to improve the 
detection, navigation and situational awareness capabilities of your 
fleet, and importantly, to modernize decision support tools and watch 
stander workload reduction features to improve readiness and prevent 
future collisions.
    Vice Admiral Brown, can you describe the importance of this radar 
modernization program to your efforts to improve the readiness of your 
fleet, and any steps you are taking in the interim to address the 
operational and training challenges cited in Comprehensive Review?
    Admiral Brown. Replacement parts for high-end electronics 
inherently obsolesce over time as technology matures. This results in 
decreased readiness as our systems age and components, that degrade or 
fail, become in short supply. Radar modernization is critical to 
combatting obsolescence. The Next Generation Surface Search Radar 
(NGSSR) will field the latest surface radar technology that industry 
can provide. NGSSR fielding keeps the Navy in line with industry 
technology standards and increases readiness. Before the 2017 USS 
FITZGERALD and USS JOHN S. McCAIN collisions, the Surface Force 
recognized a decrease in surface search radar operational availability, 
and took two steps to increase the readiness of these systems. The 
first was to initialize Rotating Radar Maintenance Assistance Team 
(MAT) visits to ships by the Navy's rotating radar experts. The goal of 
the Rotating Radar MAT program is to optimize radar performance and 
increase technical proficiency of the shipboard technicians. The second 
action was to accelerate the fielding of technical refreshes on older 
systems. These refreshes replaced some aging radar parts with newer, 
more reliable, and more readily available parts. Following the USS 
FITZGERALD and USS JOHN S. McCAIN incidents, the Surface Force 
implemented two additional actions to increase radar readiness. The 
first was to implement the Rotating Radar Improvement Program (RRIP). 
The RRIP requires all ships to provide monthly reports on critical 
radar system components and overall system performance. Navy radar 
engineers evaluate this data, and in turn, identify readiness drivers 
and conduct trend analysis. The second action was to require ships to 
report all navigation system casualties at a minimum of Category 3--the 
second highest casualty category. This ensures all operational 
commanders have visibility on casualties to these critical systems, and 
ensures energizing of the appropriate resources to repair system 
casualties. All of these efforts resulted in increased readiness. 
Driving operational availability higher is difficult as these systems 
age. The Navy is committed to NGSSR as soon as possible. Pursuant to 
Comprehensive Review (CR) findings, all of the following measures to 
enhance the development, assessment, and sustainment of radar operator 
proficiency are in place. A 2018 review of Personnel Qualification 
Standards (PQS) for all Bridge and Combat information Center (CIC) 
watchstanders, developed specific PQS requirements for radar operator, 
where such formalized requirements did not previously exist. Additional 
Automatic Radar Plotting Aid (ARPA) training was added to the Basic 
Division Officer Course (BDOC) curriculum and included in the Junior 
Officer of the Deck (JOOD) Course established in 2019. Navigation, 
Seamanship and Shiphandling Trainers (NSSTs) in each Fleet 
Concentration Area (FCA) now bear integrated radar capability between 
the Bridge and CIC training suites. Holistic reviews of Bridge/CIC 
effectiveness during Bridge Resource Management Workshops (BRMWs) and 
Type Commander Navigation Assessment Team visits now include Radar 
operator training and mentoring. Navigation Self-Assessment Groom Teams 
(NAV SAGTs) include Radar tuning and equipment functionality 
verifications as part tailored reviews for each respective ship class.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. KIM
    Mr. Kim. Vice Admiral Brown, what are the Navy's plans to deal with 
the SPY-1 radars battle spare shortages in current inventory?
    What plans, if any, is the Navy considering in implementing a 
possible SPY-1 array battle spare program? Logically, 100% of the DDG 
and cruisers currently in the Navy's inventory have SPY-1 radars, it 
would be a reasonable question to ask has the Navy considered plans to 
implement a battle spare program, in light of the recent incidents.
    Admiral Brown. Only three SPY-1 Arrays (USS COLE, USS FITZGERALD, 
USS OSCAR AUSTIN), one Signal Processor Group (USS CHANCELLORSVILLE), 
and one Transmitter Group (USS SAMPSON) required major-damage repairs 
since 2000. Previous SPY-1 major-damage repairs utilized assets from 
the production line vice a pool of ready battle spares. Navy conducted 
a deep dive into options for SPY-1 Radar system battle sparing. In the 
long-term, the FY20-FY25 Program of Record plans for Surface Ship 
Modernization and Decommissioning will enable Navy to harvest 
components for storage and employment as spares of critical equipment 
for use in cases of battle damage. Many lower level components are 
available for immediate harvest, but others are not available until 
future years due to the specific upgrade/replacement schedules for each 
Destroyer (DDG) or Cruiser (CG). If an immediate need for a critical 
spare arises in the interim, Navy can obtain those components from the 
various ashore engineering sites. Removal of that equipment for use in 
cases not involving battle damage is not prudent given the operational 
impact of respective shore sites.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. Is there any sort of objective test, such as a 
standardized written and/or practical examination SWOs take in order to 
qualify/requalify as an Officer of the Deck or for obtaining their SWO 
pin? To my knowledge, Merchant Marines take licensing exams. If there 
are none, I'd be concerned about the subjectivity of assessments.
    Admiral Brown. There are multiple standardized objective tests and 
exams required for Officer of the Deck (OOD) and Surface Warfare 
Officer (SWO) qualification. For example, a pre-requisite for OOD 
qualification is successful completion of the 9-week Basic Division 
Officer Course (BDOC), which includes several written exams on 
Navigation Fundamentals, Rules of the Road, and ship-handling. 
Additionally, to reduce variance and subjectivity during the 
assessments, the Surface Warfare Officers School Command (SWOS) 
developed check sheets, established grading criteria, and provided 
assessor training. Collectively, these measures ensure consistency and 
standardization in the assessment process employed at each milestone 
level.
    Mr. Cisneros. Since the Surface Navy has already adopted some 
paradigms from their counterparts in Naval Aviation such as CO/XO 
fleet-ups and dedicated training ships, is it worthwhile for the 
Surface Warfare Community to look into a NATOPs-type (The Naval Air 
Training and Operating Procedures Standardization) program that 
Aviators use, which has shown to have dramatically reduced aviation 
mishaps since its inception?
    Admiral Brown. The Surface Warfare Community already employs 
similar measures. For ship-handling, the Surface Navy utilizes the 
United States Coast Guard (USCG) Navigation Rules as the source 
document governing the operation of vessels upon the high seas and in 
all waters connected therewith navigable by seagoing vessels. For 
comprehensive governance of SWO requirements and milestones from 
accession through major command, the Surface Warfare community utilizes 
the Surface Warfare Officer Career Manual. This document spans all of 
the following:
    SWO Milestone Mariner Skills Assessments, Evaluations, and 
Competency Checks
    Surface Warfare Mariner Skills Logbook requirements
    Surface Warfare watchstanders proficiency requirements
    SWO Qualification requirements
    Surface Force Command requirements
    For professional competency requirements, the Surface Warfare 
community utilizes Surface Warfare Officer Requirements Document 
(SWORD) to define SWO competencies during career progression from 
Division Officer through Major Command. The SWORD provides the Surface 
Force a broad guide of the progression of knowledge and professional 
skills expected at each career milestone. It establishes a commonly 
understood baseline requirement upon which training and the associated 
infrastructure can be developed, implemented, and validated to ensure 
the delivery of required skills. The major competencies at which SWOs 
develop, enhance, and sustain proficiency across multiple career 
milestone assignments are: Fight the Ship, Drive the Ship, Manage the 
Ship, and Command the Ship. The SWORD provides the specific knowledge, 
skills, and abilities, (KSAs) associated with each four core 
competencies (Drive the Ship, Fight the Ship, Manage the Ship, Command 
the Ship), and outlines the key means of sustaining currency across the 
SWO training continuum.
    In defining Surface Warfare navigation, seamanship, ship-handling, 
engineering, damage control, material management, program management, 
and other requirements, Surface Warfare drew heavily upon USCG and 
commercial maritime industry. In recent years, the Surface Force 
progressively adopted elements of the merchant marine industry 
Standards of Certification and Watchkeeping (STCW) and USCG 3rd Mate 
(Unlimited) licensing requirements into SWO and enlisted training where 
such requirements were aligned to Surface Warfare core competencies. 
The breadth of SWO qualification requirements (some of which exceed 
STCW/USCG standards--e.g. SWO Mariner Skill Logbook documentation 
criteria) and the presence of specific STCW and USCG licensing 
requirements (some of which have no bearing upon Surface Warfare 
competencies--e.g. Cargo Handling), however, preclude wholesale 
adoption of STCW and 3rd Mate (Unlimited) licensing requirements. The 
Surface Warfare mariner skills assessment regime is comparable to the 
Navigation Skills Assessment Program (NSAP). The Maritime Institute for 
Technology and Graduate Studies (MiTAGS) employs NSAP, which is the 
assessment gold standard for assessment for the commercial marine 
industry.

                                  <all>
</pre></body></html>
